<html>
<title> - OIL AND GAS DEVELOPMENT: EXEMPTIONS FROM HEALTH AND ENVIRONMENTAL PROTECTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
   OIL AND GAS DEVELOPMENT: EXEMPTIONS FROM HEALTH AND ENVIRONMENTAL 
                              PROTECTIONS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2007

                               __________

                           Serial No. 110-98

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                     U.S. GOVERNMENT PRINTING OFFICE
45-610 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 31, 2007.................................     1
Statement of:
    Grumbles, Benjamin H., Assistant Administrator for Water, 
      U.S. Environmental Protection Agency; and Robert Anderson, 
      Deputy Assistant Director for Minerals, Realty and Resource 
      Protection, Bureau of Land Management, U.S. Department of 
      the Interior...............................................   147
        Anderson, Robert.........................................   158
        Grumbles, Benjamin H.....................................   147
    Mall, Amy, senior policy analyst, Natural Resources Defense 
      Council; Kendrick Neubecker, on behalf of Trout Unlimited; 
      Theo Colborn, president, the Endocrine Disruption Exchange; 
      Daniel Teitelbaum, M.C., P.C., medical toxicologist, 
      president, Medical Toxicology and Occupational Medicine; 
      Steve Mobaldi, Grand Junction, CO; Susan Wallace-Babb, 
      Winnsboro, TX; and David E. Bolin, deputy director, State 
      Oil and Gas Board, State of Alabama........................    18
        Bolin, David E...........................................   108
        Colborn, Theo............................................    63
        Mall, Amy................................................    18
        Mobaldi, Steve...........................................    96
        Neubecker, Kendrick......................................    53
        Teitelbaum, Daniel.......................................    87
        Wallace-Babb, Susan......................................   101
Letters, statements, etc., submitted for the record by:
    Anderson, Robert, Deputy Assistant Director for Minerals, 
      Realty and Resource Protection, Bureau of Land Management, 
      U.S. Department of the Interior, prepared statement of.....   159
    Bolin, David E., deputy director, State Oil and Gas Board, 
      State of Alabama, prepared statement of....................   110
    Colborn, Theo, president, the Endocrine Disruption Exchange, 
      prepared statement of......................................    65
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, letter dated October 30, 2007.......   143
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia:
        Prepared statement of....................................    14
        Various letters..........................................   125
    Grumbles, Benjamin H., Assistant Administrator for Water, 
      U.S. Environmental Protection Agency:
        Letter dated January 11, 2008............................   164
        Prepared statement of....................................   149
    Mall, Amy, senior policy analyst, Natural Resources Defense 
      Council, prepared statement of.............................    21
    Mobaldi, Steve, Grand Junction, CO, prepared statement of....    98
    Neubecker, Kendrick, on behalf of Trout Unlimited, prepared 
      statement of...............................................    55
    Teitelbaum, Daniel, M.C., P.C., medical toxicologist, 
      president, Medical Toxicology and Occupational Medicine, 
      prepared statement of......................................    89
    Wallace-Babb, Susan, Winnsboro, TX, prepared statement of....   104
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   180
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     3


   OIL AND GAS DEVELOPMENT: EXEMPTIONS FROM HEALTH AND ENVIRONMENTAL 
                              PROTECTIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 31, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, 
Tierney, Higgins, Braley, Davis of Virginia, Shays, Cannon, 
Issa, Sali, Platts, Duncan, and Foxx.
    Also present: Representative DeGette.
    Staff present: Phil Barnett, staff director and chief 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; Greg Dotson, chief environmental counsel; Gilad 
Wilkenfeld, professional staff member; Teresa Coufal, deputy 
clerk; Caren Auchman and Ella Hoffman, press assistants; Leneal 
Scott, information systems manager; William Ragland, Miriam 
Edelman, and Rob Cobbs, staff assistants; David Marin, minority 
staff director; A. Brooke Bennett and Kristina Husar, minority 
counsels; Larry Brady, minority senior investigator and policy 
advisor; Patrick Lyden, minority parliamentarian and member 
services coordinator; Brian McNicoll, minority communications 
director; and Benjamin Chance, minority clerk.
    Chairman Waxman. Today's hearing will examine loopholes in 
Federal health and environment protections that are exploited 
by the oil and gas industry.
    As children, we all learned about basic fairness, and we 
know that it is just not fair when someone gets to play by 
different rules than the rest of us. But as we will learn 
today, there is one set of environmental rules for the oil and 
gas industry and a different set of rules for the rest of 
America.
    The Safe Drinking Water Act makes it illegal to inject 
other toxic chemicals into underground aquifers, but this 
prohibition does not apply to the oil and gas industry. Think 
about this for a moment. Oil and gas companies can pump 
hundreds of thousands of gallons of fluid containing any number 
of toxic chemicals into sources of drinking water with little 
or no accountability.
    The Clean Water Act requires companies and even homeowners 
to control erosion while a property is under construction. But 
even this simple requirement does not apply to oil and gas 
production facilities. Even the Clean Air Act dropped a key 
pollutant emitted by oil and gas operations from the list of 
regulated hazardous air pollutants, though it did give EPA 
authority to add the chemical to the list.
    This wish list of loopholes is terrific for the oil and gas 
industry but terrible for our health and environment. In the 
case of Steve Mobaldi and Susan Wallace-Babb, who will testify 
today, unregulated oil and gas development had a disastrous 
impact on their lives.
    Several of the biggest loopholes were enacted just 2 years 
ago as part of the Energy Policy Act of 2005. One exemption 
involves a practice known as hydraulic fracturing, which has 
become widely used in recent years in coal bed methane gas 
wells. Hydraulic fracturing involves injecting a mixture of 
water, chemicals, and sand into a well at high pressure. This 
mixture, or fracturing fluid, is put under enough force that it 
cracks the underground rock formation, allowing natural gas to 
escape. These fracturing fluids can contain toxic chemicals.
    A Federal Appeals Board ruled in 1997 that this practice, 
which Haliburton pioneered, was subject to regulation under the 
Safe Drinking Water Act, but in 2005 Congress exempted 
hydraulic fracturing from regulation.
    I and other Members opposed this special interest give-
away. We were right on the merits, but lost the key votes.
    We did, however, salvage one small victory: a provision was 
inserted into the law that requires the Department of Interior 
to commission a comprehensive National Academy of Sciences 
study of coal bed methane development, including the impacts of 
hydraulic fracturing. Yet, even this victory proved to be 
short-lived. As I explained in a letter I am releasing today, 
the Interior Department has essentially ignored the study 
requirement.
    The theory seems to be that the less we know about the 
dangerous practice of hydraulic fracturing, the better. As 
someone who has spent my career working to improve the Safe 
Drinking Water Act, I am deeply disturbed by this approach to a 
serious environmental threat. I would like to ask unanimous 
consent to include my letter in the record.
    Without objection, that will be the order.
    The Bush administration argues that we need oil and gas too 
desperately to let anything stand in the way, but there is no 
way we can ever drill our way to energy independence. We need 
efficiency and we need alternatives to oil, and we have a moral 
obligation to respect our environment.
    The loopholes we will learn about today affect the water we 
drink, the air we breathe, and the land we live on. I hope that 
with today's hearing we can begin to bring our environmental 
policy back into balance.
    [The prepared statement of Chairman Henry A. Waxman and the 
letter referred to follow:]

[GRAPHIC] [TIFF OMITTED] T5610.001

[GRAPHIC] [TIFF OMITTED] T5610.002

[GRAPHIC] [TIFF OMITTED] T5610.003

[GRAPHIC] [TIFF OMITTED] T5610.004

[GRAPHIC] [TIFF OMITTED] T5610.005

[GRAPHIC] [TIFF OMITTED] T5610.006

[GRAPHIC] [TIFF OMITTED] T5610.007

[GRAPHIC] [TIFF OMITTED] T5610.008

[GRAPHIC] [TIFF OMITTED] T5610.009

    Chairman Waxman. I want to recognize Mr. Davis, the ranking 
member.
    Mr. Davis of Virginia. Thank you, Mr. Chairman, for holding 
this important hearing. I want to thank our panel for coming 
before us today.
    In considering this committee's hearings today and next 
week, one might think the committee seeks to look into 
regulatory structures of energy exploration and generation, but 
a closer look reveals something different. These hearings 
appear to be about the impact on the environment of oil and gas 
exploration, coal-fired power plants, and although the 
background materials for this hearing describe such 
environmental impacts as potential, it appears pretty clear 
that some people have made up their minds.
    Environmental conservation and protection is and should be 
a top national priority. Certainly, all responsible 
policymakers can agree on that. But how that priority fits in 
with others is where the disagreement often begins. I think we 
can all agree the Nation is moving toward an energy crisis. Oil 
already costs more than $90 a barrel, and our dependence on oil 
from unstable and often unfriendly nations continues, really 
dysfunctional countries. That is what we are dependent on.
    Yet, many of my colleagues, as well as interest groups and 
others, seem unable or unwilling to move toward the middle and 
find a solution. Instead, we basically have two camps: one 
which argues we can drill or mine our way out of the problem, 
and the other which says we should focus on reducing our demand 
and mitigating carbon emissions.
    The reality is we need to do both. We have to find more 
sources of energy, we must conserve. And I would add a third 
thing: we need to do major, major investments in alternative 
energies. We need almost a Marshall plan where we can focus so 
that 10 years from now we are not dependent on these 
dysfunctional nations around the world for our energy supply.
    The gridlock up here, I will just tell you from one 
Member's perspective, is very disillusioning that we can't come 
together. This is something all Americans ought to agree on.
    Henry and I may have some differences, but sitting around 
the table I think we agree that we need some solutions.
    I am disappointed that as we go into the 11th month of this 
new Congress we continue to move further away from the energy 
independence and national security. Our energy bill not only 
fails to include any new sources of energy; it takes some 
existing sources off the table. It provides no new measure for 
addressing climate change or energy dependence. Meanwhile, some 
Members seek stringent regulations to provide Kyoto-like carbon 
dioxide reductions and place off-limits promising sources of 
energy within our border. To me, in the House bill we didn't 
even have higher CAFE standards, something I have voted 
consistently for and has to be part of any conservation 
package.
    Given the widespread concern for the damaging effect of 
excessive carbon dioxide accumulation, a sensible energy policy 
should focus on both securing additional sources of domestic 
available energy and reducing carbon emissions, while ensuring 
regulations designed to protect the environment are sensible, 
complete, and enforceable.
    What we can't do now is take potential sources off the 
table. I worry about this in the subtext of the hearing. I 
worry again about poking small holes in the bottom of the boat.
    I look forward to these hearings as an opportunity to work 
together to create solutions, not bigger problems.
    Again, the chairman and I disagree on some issues, but I 
appreciate him bringing this issue forward and for bringing 
this distinguished panel today. Thank you very much.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.010
    
    [GRAPHIC] [TIFF OMITTED] T5610.011
    
    Chairman Waxman. Thank you very much, Mr. Davis.
    We will see after this hearing whether we have some 
disagreements on these issues, but I agree with your sentiment 
that we need to work together, because that is the only way we 
are going to get things done.
    We have a number of members of the first panel, and I want 
to introduce them, but Mr. Issa, would you like to make an 
opening statement?
    Mr. Issa. I would appreciate it. I will be brief.
    Chairman Waxman. OK.
    Mr. Issa. Thank you, Mr. Chairman, for convening this 
hearing.
    I agree with the ranking member, Mr. Davis, that we should 
acknowledge and plan for a carbon-constrained world. That, for 
me, includes nuclear and other forms of zero emissions, 
something that we have not yet begun to look at in this 
Congress.
    Further, the debate is not a question on additional 
production or conservation. As Mr. Davis said, we need to do 
both, especially at a time in which we see oil prices heading 
toward $100 a barrel, in our home State gasoline heading toward 
$3.30. We cannot simply say that we need to re-look at issues 
which, on a bipartisan basis, have been previously resolved and 
in the courts have been previously heard and in the Clinton 
administration have been previously resolved as the panacea for 
fixing all items.
    I appreciate that the chairman's consistent view toward 
clean water has included, for all practical purposes, an end to 
mining, certainly an end to exploration of natural gas and 
other petroleum products.
    From 2000 to 2005, the Democrat congressional leaders 
worked in the shadows to stall an agreement on the energy bill. 
I believe today we should be fair in saying that there were 
minor changes in the 2005 bill; however, they were minor. For 
all practical purposes, we operate on an energy basis under 
laws which have been codified for decades and which the courts 
and the EPA have reviewed and find reasonable.
    What we don't need today is to tell the oil and natural gas 
markets that the rules of the road are going to be changed, and 
changed retroactively, as many pieces of legislation and some 
of the views on the dais would do.
    I look forward to this hearing. I certainly look forward to 
being clear and concise that this practice does not include the 
use of diesel fuel. That has already been eliminated. In fact, 
what we are talking about is pressurizing water in order to let 
loose minerals that are vital to our society. Every drop of 
oil, every cubic foot of natural gas that we take out of 
American soil is one less that we need to take out of unstable 
regions around the world.
    With that, I yield back.
    Chairman Waxman. Thank you very much, Mr. Issa.
    Without objection, our colleague, Diana DeGette from 
Colorado, wishes to sit with our panel, and I would ask 
unanimous consent that she be permitted to do so.
    For the first panel we have Ms. Amy Mall, who is a senior 
policy analyst at the Natural Resources Defense Council working 
on issues affecting the environment, public lands, and oil and 
gas regulation.
    Mr. Kendrick Neubecker is the vice president of Colorado 
Trout Unlimited. Mr. Neubecker has 25 years experience as a 
land surveyor and has worked for the oil and gas industry in 
both Colorado and Wyoming.
    Dr. Theo Colborn is president of the Endocrine Disruption 
Exchange. Dr. Colborn has a Ph.D. in zoology, with distributed 
minors in epidemiology, toxicology, and water chemistry. She 
also has a master's degree in fresh water ecology.
    We are pleased to welcome you.
    Mr. Daniel Teitelbaum is a medical toxicologist. He is an 
associate professor of preventive medicine at the University of 
Colorado Medical School and adjunct professor of environmental 
sciences at the Colorado School of Mines. Dr. Teitelbaum works 
in the field of environmental and occupational toxicology.
    Mr. Steve Mobaldi was a resident of Rifle, CO, from 1995 to 
2004. Mr. Mobaldi will share the story about how his life and 
the life of his wife Chris changed after oil and gas 
development began near their home.
    Ms. Susan Wallace-Babb was a resident of Parachute, CO, 
between 1997 and 2006. Ms. Wallace-Babb is here today to share 
her story of how oil and gas development affected her life.
    And Mr. David Bolin is the deputy director of the Alabama 
State Oil and Gas Board. Mr. Bolin has held technical and 
supervisory roles in the State Oil and Gas Board since 1982 and 
has worked for the State of Alabama for nearly three decades.
    We welcome all of you to our hearing today.
    It is the practice of this committee that all witnesses who 
testify before us testify under oath. I would like to ask each 
of you to please stand and raise your right hands to take the 
oath.
    [Witnesses sworn.]
    Chairman Waxman. The record will reflect that each of the 
witnesses answered in the affirmative.
    Your prepared statements will be in the record in full. 
What we would like to ask each of you to do is to limit your 
oral presentation to no more than 5 minutes so that we can have 
all the witnesses and opportunity for questions from the panel.
    There is a little clock in front, and when it is green that 
is fine. Last minute it will be on yellow. That means you have 
a minute to go. And then when it is red it means the 5-minutes 
is up.
    Ms. Mall, why don't we start with you.

    STATEMENTS OF AMY MALL, SENIOR POLICY ANALYST, NATURAL 
  RESOURCES DEFENSE COUNCIL; KENDRICK NEUBECKER, ON BEHALF OF 
    TROUT UNLIMITED; THEO COLBORN, PRESIDENT, THE ENDOCRINE 
  DISRUPTION EXCHANGE; DANIEL TEITELBAUM, M.C., P.C., MEDICAL 
 TOXICOLOGIST, PRESIDENT, MEDICAL TOXICOLOGY AND OCCUPATIONAL 
  MEDICINE; STEVE MOBALDI, GRAND JUNCTION, CO; SUSAN WALLACE-
BABB, WINNSBORO, TX; AND DAVID E. BOLIN, DEPUTY DIRECTOR, STATE 
              OIL AND GAS BOARD, STATE OF ALABAMA

                     STATEMENT OF AMY MALL

    Ms. Mall. Thank you, Chairman Waxman, Ranking Member Davis, 
and members of the committee. Thank you for the invitation to 
appear here today.
    My name is Amy Mall and I am a senior policy analyst with 
the National Resources Defense Council [NRDC]. Today NRDC is 
releasing a report entitled, Drilling Down: Protecting Western 
Communities from the Health and Environmental Effects of Oil 
and Gas Production. You should each have a copy of the report. 
It discusses hazardous materials associated with oil and gas 
exploration and production, loopholes in Federal laws that 
allow industry to release these contaminants into the 
environment, technologies available to control pollution, and 
stories of the impacts of contamination reported by individuals 
in the Rocky Mountain region.
    The oil and gas industry is expanding rapidly in the United 
States and coming closer to homes and communities. The McCoy 
Elementary School in Aztec, NM, for example, is located less 
than 400 feet from two wells, and the playground is less than 
150 feet.
    Among the toxic materials that can be released during oil 
and gas operations are benzene, toluene, xylene, radioactive 
materials, hydrogen sulfide, arsenic, and mercury. Their 
potential health effects range from cancer to respiratory 
problems to eye and skin irritation.
    What are the statutory loopholes for oil and gas 
exploration and production that need to be closed? The Safe 
Drinking Water Act has an exemption for hydraulic fracturing, 
which usually involves the underground injection of toxic 
chemicals. Hydraulic fracturing is a suspect in impaired 
drinking water in Alabama, Colorado, New Mexico, Virginia, West 
Virginia, and Wyoming.
    Additionally, the Safe Drinking Water Act has lower daily 
fines and sets a higher hurdle for regulating certain oil or 
gas operations than for other industries.
    The Clean Water Act has an exemption from stormwater permit 
requirements, expanded by Congress in 2005. The EPA has 
interpreted this new exemption as allowing unlimited discharge 
of sediment into the Nation's streams, even if it contributes 
to a violation of State water quality standards. In addition, 
the Clean Water Act definition of pollutant excludes certain 
materials injected into an oil or gas well.
    The Resource Conservation and Recovery Act [RCRA], has an 
exemption from most hazardous waste associated with oil and gas 
production, including drilling chemicals, hydrocarbons, and 
hydraulic fracturing fluids, even if they contain toxic 
materials.
    The Comprehensive Environmental Response, Compensation, and 
Liability Act [CERCLA], or the Superfund law, has an exemption 
for petroleum and natural gas which contain toxic substances. 
The Clean Air Act contains exemptions from the national 
emission standards for hazardous air pollutants. In addition, 
hydrogen sulfide, which can be a serious health threat, is 
exempt from regulation as a hazardous air pollutant.
    Exploration and production are not covered by the toxic 
release inventory of the Emergency Planning and Community Right 
to Know Act, so that companies can withhold information about 
chemicals, even if the information is needed to make informed 
decisions about protecting health.
    Why were these exemptions created? The hydrogen sulfide 
exemption was called a core scientific decision by an EPA 
official. An EPA study on hydraulic fracturing used to bolster 
the Safe Drinking Water Act exemption was declared 
scientifically unsound by an EPA whistleblower.
    Another EPA official stated that the RCRA exemption was 
approved despite a scientific determination of the 
hazardousness of the waste.
    It is time to end these loopholes. There is sufficient 
evidence that toxic materials that can harm human health are 
being released into the environment. The oil and gas industry 
should be required to comply with the same statutory provisions 
as any other industry.
    There are numerous methods available to industry to comply 
with our environmental laws, and in many cases they are 
actually profitable. Devon Energy, for example, spent $15,000 
to capture gas emissions from a well instead of venting them 
into the air and sold the methane captured for $35,000. A 
company representative called it a win/win for everybody.
    Regarding hydraulic fracturing, there are nontoxic 
alternatives to harmful chemicals, one of which is water. 
Company studies have found that some gas wells fractured with 
water produce more gas and/or cost considerably less to 
fracture than wells fractured with chemicals.
    For stormwater pollution prevention, there are approaches 
that are quite low-tech, such as installing vegetative ground 
cover, berms, or silt fences.
    For managing waste, options include closed-loop drilling 
fluid systems that studies have found can dramatically lower 
the volume of waste, maximize re-use and recycling of drilling 
fluids, and create savings in the long run when compared to 
open air disposal pits, up to tens of thousands of dollars per 
pit.
    Many environmental improvements such as substituting less 
toxic materials, disclosing information to the public, or 
improving monitoring and maintenance can be implemented 
quickly, without new equipment or great burden. Instead, 
industry is sometimes purchasing the homes of people who voice 
concerns about their health in return for signed agreements 
that the complaints will not be made public.
    The free pass to pollute given to the oil and gas industry 
is a privilege that is unjustifiable when weighed against the 
risks to human health. The time for Congress to take action is 
long overdue.
    Thank you.
    [The prepared statement of Ms. Mall follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.012
    
    [GRAPHIC] [TIFF OMITTED] T5610.013
    
    [GRAPHIC] [TIFF OMITTED] T5610.014
    
    [GRAPHIC] [TIFF OMITTED] T5610.015
    
    [GRAPHIC] [TIFF OMITTED] T5610.016
    
    [GRAPHIC] [TIFF OMITTED] T5610.017
    
    [GRAPHIC] [TIFF OMITTED] T5610.018
    
    [GRAPHIC] [TIFF OMITTED] T5610.019
    
    [GRAPHIC] [TIFF OMITTED] T5610.020
    
    [GRAPHIC] [TIFF OMITTED] T5610.021
    
    [GRAPHIC] [TIFF OMITTED] T5610.022
    
    [GRAPHIC] [TIFF OMITTED] T5610.023
    
    [GRAPHIC] [TIFF OMITTED] T5610.024
    
    [GRAPHIC] [TIFF OMITTED] T5610.025
    
    [GRAPHIC] [TIFF OMITTED] T5610.026
    
    [GRAPHIC] [TIFF OMITTED] T5610.027
    
    [GRAPHIC] [TIFF OMITTED] T5610.028
    
    [GRAPHIC] [TIFF OMITTED] T5610.029
    
    [GRAPHIC] [TIFF OMITTED] T5610.030
    
    [GRAPHIC] [TIFF OMITTED] T5610.031
    
    [GRAPHIC] [TIFF OMITTED] T5610.032
    
    [GRAPHIC] [TIFF OMITTED] T5610.033
    
    [GRAPHIC] [TIFF OMITTED] T5610.034
    
    [GRAPHIC] [TIFF OMITTED] T5610.035
    
    [GRAPHIC] [TIFF OMITTED] T5610.036
    
    [GRAPHIC] [TIFF OMITTED] T5610.037
    
    [GRAPHIC] [TIFF OMITTED] T5610.038
    
    [GRAPHIC] [TIFF OMITTED] T5610.039
    
    [GRAPHIC] [TIFF OMITTED] T5610.040
    
    [GRAPHIC] [TIFF OMITTED] T5610.041
    
    [GRAPHIC] [TIFF OMITTED] T5610.042
    
    [GRAPHIC] [TIFF OMITTED] T5610.043
    
    Chairman Waxman. Thank you very much, Ms. Mall.
    Mr. Neubecker.

                STATEMENT OF KENDRICK NEUBECKER

    Mr. Neubecker. Mr. Chairman and members of the committee, 
thank you for this opportunity to testify. My name is Ken 
Neubecker. I live and work in western Colorado and have been 
involved in water issues through Trout Unlimited for many 
years.
    Today I am testifying on behalf of Trout Unlimited, the 
National Wildlife Federations, including the Colorado, Montana, 
and Wyoming Wildlife Federations, and the Back Country Hunters 
and Anglers. I am here to testify about our concerns with the 
current stormwater discharge exemptions from the Clean Water 
Act for the oil and gas industry.
    TU and our partners urge Congress to take action to repeal 
the Clean Water Act exemptions that the oil and gas industry 
currently enjoy.
    I have been in the land development business for nearly 30 
years, most of that in western Colorado. I have personal 
experience with the damage caused by sediment and uncontrolled 
erosion from constructionsites, including those for oil and 
gas.
    This damage impacts all of us, whether we are avid 
fishermen, farmers and ranchers, or small town water providers. 
Nearly all land development in Colorado and the west are 
required to comply with stormwater discharge regulations. The 
fact that the oil and gas industry is not simply defies logic.
    Over the past few years, this industry has become the 
largest single developer in the west. Well pads, roads, 
pipelines, compression and pumping stations, man camps, and 
other related infrastructure cover large areas of the 
intermountain west like a vast spider web. Thousands of acres 
of disturbed land lay open and exposed to runoff. The land 
doesn't care who owns the bulldozer or what political 
connections they may have; it erodes freely in the face of any 
disturbance.
    Subsequent damage to fish and wildlife habitat also occurs 
without regard to the source. Oil and gas activity is no 
exception.
    Sediment in a stream can be extremely damaging to aquatic 
and riparian life, wildlife habitat, and to the local 
communities. Aquatic insects upon which fish and other 
organisms feed are smothered. The gravel bars fish need for 
spawning are buried. The eggs and developing fry in the gravel 
are lost. Gas development often occurs in the smaller tributary 
drainages, some of which are among the last refuges of cut-
throat trout. These fish are particularly vulnerable to 
sediment from uncontrolled stormwater runoff.
    Over 80 percent of the wildlife in Colorado depends on 
riparian areas for all or part of their lives. For the elk, in 
particular, these areas are their nurseries. I have seen 
tributaries of the Colorado River choked with sediment from 
constructionsites, well pads with unstable fill slopes ready to 
collapse into a stream, and constructionsites with deeply cut 
gullies filling large debris fans into the fields and streams 
below.
    Further, this is not just a sportsmen and recreation issue. 
Sediment chokes the intakes from municipal water supplies, 
irrigation ditches, and damages the irrigated field where it 
comes in with the water. Just as the riparian and wetland 
areas, layers of mud and silt can wash over a field, smothering 
the crops and poisoning the soil. When sediment buries native 
vegetation, noxious weeds come in, rendering the area unusable 
by wildlife and humans, alike.
    Any further loss and degradation of streams, riparian 
areas, and wetlands in Colorado and the West are a matter of 
grave concern for sportsmen and for the bedrock economies and 
values of the small communities that dot the area. Hunting and 
fishing and a myriad of other recreation-based activities form 
the fundamental economy of much of the West. This brings in 
billions of dollars each year.
    The oil and gas boom may go on for another 10 or 20 years, 
but what then? Without adequate controls and environmental 
protection on all types of land development, including and 
especially oil and gas, there will be precious little left in 
20 years to support the wildlife and recreation that our 
economy will then be even more dependent on.
    Because of this Federal exemption, individual States have 
been forced to deal with this significant problem as best they 
can. The Colorado Water Quality Control Commission ruled twice 
to make the oil and gas industry comply. Support for this 
mandatory compliance was overwhelming throughout western 
Colorado and included a bipartisan mix of local governments, 
water districts, various organizations, and numerous State and 
Federal legislators.
    In Colorado the industry has agreed to comply fully with 
the stormwater discharge regulations and permitting 
requirements. Despite predictions of higher production costs 
and delayed development, the rush to drill doesn't seem to have 
slowed down at all.
    This success needs to be translated to oil and gas 
construction activity uniformly throughout the West. Water is 
the most precious natural resource we have, not oil and gas. 
Water quality in the West is a vital concern, especially given 
climate change. To continue exempting the oil and gas industry 
from Federal water quality and land use regulations is 
unconscionable.
    Thank you.
    [The prepared statement of Mr. Neubecker follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.044
    
    [GRAPHIC] [TIFF OMITTED] T5610.045
    
    [GRAPHIC] [TIFF OMITTED] T5610.046
    
    [GRAPHIC] [TIFF OMITTED] T5610.047
    
    [GRAPHIC] [TIFF OMITTED] T5610.048
    
    [GRAPHIC] [TIFF OMITTED] T5610.049
    
    [GRAPHIC] [TIFF OMITTED] T5610.050
    
    [GRAPHIC] [TIFF OMITTED] T5610.051
    
    Chairman Waxman. Thank you very much for your testimony.
    Dr. Colborn.

                   STATEMENT OF THEO COLBORN

    Ms. Colborn. Mr. Waxman and members of the committee, good 
morning. I am Theo Colborn, president of TEDX, a nonprofit 
organization concerned about the adverse health and 
environmental effects of chemicals.
    I am here to speak as an environmental health analyst and 
as a resident of western Colorado whose watershed and air are 
being threatened by natural gas production and delivery.
    I had no intention of getting involved with natural gas 
development when I began in 2002 to set up my nonprofit in 
Colorado, until someone handed me the formula for the 
fracturing fluid to be used in 17 proposed gas wells on the 
Grand Mesa National Forest, which my family and I consider our 
back yard. When I found out that each fracturing incident, 
commonly called fracking, uses approximately one million 
gallons of fluid, and that each well can be fracked as much as 
10 times or more, that caught my attention.
    Soon TEDX became a clearinghouse for any information about 
the products that were being used in natural gas operations. To 
handle the data, we set up computerized spreadsheets, searched 
the peer-reviewed literature, and Government and industry 
documents for the adverse health effects of the chemicals on 
our list. We now have over 1,500 citations to back up the 
Colorado health data.
    The last time TEDX updated the Colorado spreadsheet, there 
were 171 products and 245 chemicals on the list. Of the 
products, 92 percent had adverse health effects. The other 8 
percent are products for which there is no information because 
it is either proprietary or no health studies could be found.
    Most of the products had multiple health effects, with some 
having as much as 14. And, much to our surprise, some of the 
products are developmental toxicants, as well as endocrine 
disruptors; that is, they have the potential for adverse health 
effects on the hormone systems that control the construction of 
our bodies and how we function.
    As the list of products grew, a consistent pattern of 
health effects kept emerging. From 68 percent to 83 percent of 
the volatile chemicals on the list cause mild to severe 
irritation of the skin, eyes, sinuses, nose, throat, lungs, and 
the stomach. And they have neurotoxic effects ranging from 
headaches, blackouts, memory loss, confusion, complete 
exhaustion, and permanent neuropathies. Many of these chemicals 
are called sensitizers because they have a tendency to cause 
allergies. Less frequently, but about 55 percent of the 
chemicals cause disorders that develop slowly and would not 
appear immediately, such as cardiovascular and kidney damage, 
with cancer at about 35 percent.
    Physicians have no way to link health effects like these 
with an environmental contaminant.
    We also found out that drilling muds are not as safe as 
industry claims; their health pattern matches the health 
pattern of our overall analysis. It is not general knowledge 
that when methane surfaces it is wet. When this water is 
removed, it is called condensate water. In most instances, it 
is being stored in open evaporation pits, often on the well 
bed, or stored in tanks on the site and then trucked to huge 
offsite fluid receiving pits.
    It takes fleets of trucks to handle the water coming off 
the wells around the clock. This condensate water disposal 
problem will continue for the life of each well, which could be 
as long as 20 years.
    It is also not general knowledge that when methane surfaces 
it brings along with it some very toxic gases called volatile 
organic compounds [VOCs], that are being vented by the tons 
each year from each operational unit. And vast amounts of 
fugitive methane, itself a VOC and a greenhouse gas, escapes 
during numerous stages of production and delivery.
    In addition, tons of nitrogen oxide gases are produced to 
keep the equipment running, from the combustion of diesel and 
natural gas, during drilling, fracturing, trucking the water, 
and compressing the gas.
    In the presence of sunlight, VOCs and nitrogen oxides 
produce ground-level ozone that damages lung tissue and 
vegetation. Ozone is now an emerging environmental and health 
issue that extends beyond the gas fields as the result of 
natural gas development.
    Recently we were sent results of the chemical analysis of 
the residues for six waste pits. The 51 chemicals that were 
detected in those pits produced a health pattern far more toxic 
than anything we found so far.
    Most important is that 45 of the 51 chemicals detected in 
the pits were not on our list of chemicals being used during 
natural gas operations. And many of the oil's chemicals had 
concentrations well above State and Federal safety levels. Of 
the chemicals detected, 72.5 percent are on the CERCLA 
Superfund list, which suggest the possibility that every well 
pad and waste pit has the potential to become a Superfund site 
when it is closed.
    Findings such as these have raised a number of questions 
that only adequately designed testing requirements and 
protocols can address, but only after full disclosure.
    In our conclusion, our data show that the operations that 
are involved in natural gas production are releasing large 
amounts of volatile toxic substances directly into the air. 
They are introducing water soluble and volatile compounds into 
the ground, posing long-term, unpredictable hazards to our 
already marginal water resources, and an undetermined amount of 
toxic products are ending up in our soils, threatening our life 
support systems, the outcomes of which have the potential to 
adversely affect public health and the quality of our western 
environment.
    Thank you.
    [The prepared statement of Ms. Colborn follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.052
    
    [GRAPHIC] [TIFF OMITTED] T5610.053
    
    [GRAPHIC] [TIFF OMITTED] T5610.054
    
    [GRAPHIC] [TIFF OMITTED] T5610.055
    
    [GRAPHIC] [TIFF OMITTED] T5610.056
    
    [GRAPHIC] [TIFF OMITTED] T5610.057
    
    [GRAPHIC] [TIFF OMITTED] T5610.058
    
    [GRAPHIC] [TIFF OMITTED] T5610.059
    
    [GRAPHIC] [TIFF OMITTED] T5610.060
    
    [GRAPHIC] [TIFF OMITTED] T5610.061
    
    [GRAPHIC] [TIFF OMITTED] T5610.062
    
    [GRAPHIC] [TIFF OMITTED] T5610.063
    
    [GRAPHIC] [TIFF OMITTED] T5610.064
    
    [GRAPHIC] [TIFF OMITTED] T5610.065
    
    [GRAPHIC] [TIFF OMITTED] T5610.066
    
    [GRAPHIC] [TIFF OMITTED] T5610.067
    
    [GRAPHIC] [TIFF OMITTED] T5610.068
    
    [GRAPHIC] [TIFF OMITTED] T5610.069
    
    [GRAPHIC] [TIFF OMITTED] T5610.070
    
    [GRAPHIC] [TIFF OMITTED] T5610.071
    
    [GRAPHIC] [TIFF OMITTED] T5610.072
    
    [GRAPHIC] [TIFF OMITTED] T5610.073
    
    Chairman Waxman. Thank you very much, Dr. Colborn.
    Dr. Teitelbaum.

                 STATEMENT OF DANIEL TEITELBAUM

    Dr. Teitelbaum. Good morning, Chairman Waxman, Mr. Davis, 
and members of the committee. Thank you for allowing me to 
express my concerns about the public health implications of oil 
and gas development on the western slope in Colorado and New 
Mexico.
    I am Daniel T. Teitelbaum, M.D., a board certified 
occupational physician and medical toxicologist from Denver, 
CO. For more than 40 years I have practiced as an occupational 
toxicologist in Denver, and I have evaluated and treated many 
patients whose medical problems arose from within industry and 
from side effects of industry.
    There is a web of laws to protect the integrity of the 
environment and to prevent some toxic exposures to humans from 
industrial activities, but because exemptions have been granted 
to the oil and gas industry from some environmental laws and 
regulations that require them to identify and mitigate the 
impact of their activities on human health through air, water, 
and soil contamination, toxic exposures can take place.
    Despite the extraction activity underway, the toxic impact 
on the human and animal populations of the resource areas is 
unevaluated. There is no public health oversight. There is no 
data base of those exposed at work or as residents. No 
surveillance of the human impact of the activities on worker 
families and other resident populations near the extraction and 
processing sites is underway or planned. No meaningful 
evaluation of exposure of these persons to such toxics as crude 
oil or its components, benzene, toluene, xylene, naphthalene, 
produced mercury or arsenic, of hydrogen sulfide--sour gas and 
its co-riders--nor of MTBE, barites, or any other drilling 
chemicals used in the industry is done.
    There have been documented health complaints by residents 
of the area. There are also anecdotal stories of medical 
problems in those exposed. Although it is likely that there are 
completed pathways to residents of the oil and gas extraction 
areas as defined by the Agency for Toxic Substances and Disease 
Registry, no investigation of exposure by any route has been 
called for. Contaminated water sources, point emission sources, 
and soil contamination are not identified, nor is mitigation of 
contaminated sites required.
    Use of oil and gas toxics contaminated well water as 
domestic water sources leads to much larger exposure to 
volatile hydrocarbons like benzene through shallow water and by 
other routes than through the drinking water.
    Point source air contamination and soil contamination with 
oil and gas and extraction materials can lead to respiratory 
and dermal irritation, and to respiratory and dermal absorption 
of toxins and carcinogens.
    Some of the natural components of oil and gas and the 
chemicals formulated into extraction materials are allergens, 
respiratory irritants, neurotoxins, developmental and 
reproductive toxins, and carcinogens.
    In past mineral extraction programs, the workers and area 
resident populations have suffered life-threatening and even 
fatal outcomes as the result of fugitive emissions, abandoned 
recovery waste, and air and water pollution. For example, 
mining tremolite asbestos contaminated vermiculite in Libby, 
Montana, impacted the entire town of Libby and beyond. Numerous 
cases of death and illness occurred there.
    Extraction of uranium at the Summitville Mine in Colorado 
and in Uravan, CO, has caused serious environmental damage that 
threatens human health. The residues of lead, cadmium, and 
arsenic left behind from smelting and refining in the 
Globeville neighborhood of Denver has impacted the area 
residents, and the cleanup has cost huge amounts of money.
    All of these environmental toxic impacts were ignored until 
well after the activity was underway. In some instances, 
nothing was done until the work had been abandoned. Had the 
hazards been recognized or anticipated earlier, health and 
economic outcomes would have been far less.
    Prevention of late consequences of oil and gas extraction 
must be undertaken now. The health consequences of oil and gas 
extraction must be identified, assessed, and addressed. 
Measurement of point air exposures using saturation monitoring, 
assessment of local potable water supply contaminants, and soil 
contaminate evaluation should begin immediately. A data base of 
those exposed must be assembled now so that the ultimate 
outcome of the exposures they have undergone can be followed 
and secondary prevention can be undertaken.
    The ATSDR has undertaken registry activities for 
groundwater contaminant populations in other areas and with 
other toxic chemicals like benzene and trichloroethylene, and 
it follows the exposed populations. The ATSDR should 
immediately be directed to address the issues in the oil and 
gas regions on the western slope. We cannot wait until years 
after the oil and gas extraction have taken a toll like that in 
Libby, in Uravan, or other places.
    We must close the loopholes in toxic exposures to residents 
of the oil and gas extraction areas, and identify and 
quantitate the pathways and extent of toxic exposures.
    The opportunity to do the studies is clear. The fact that 
neither Government nor industry has undertaken these critical 
exposure outcome studies is inexcusable. When the bells are 
tolled for those injured, who will be willing to take the blame 
for these failures in preventive medicine?
    Thank you for your attention.
    [The prepared statement of Dr. Teitelbaum follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.074
    
    [GRAPHIC] [TIFF OMITTED] T5610.075
    
    [GRAPHIC] [TIFF OMITTED] T5610.076
    
    [GRAPHIC] [TIFF OMITTED] T5610.077
    
    [GRAPHIC] [TIFF OMITTED] T5610.078
    
    [GRAPHIC] [TIFF OMITTED] T5610.079
    
    [GRAPHIC] [TIFF OMITTED] T5610.080
    
    Chairman Waxman. Thank you very much, Dr. Teitelbaum.
    Mr. Mobaldi.

                   STATEMENT OF STEVE MOBALDI

    Mr. Mobaldi. Good morning, Chairman Waxman, Mr. Davis, 
ladies and gentlemen. My name is Steve Mobaldi. My wife, 
Elizabeth, and I moved to Rifle, CO, in June 1995 to a 10-acre 
ranch. Soon after, the oil and gas industry moved in. They 
began drilling on a property about 3,000 feet to the west. 
Within a few weeks of the drilling, Chris and I began to 
experience burning eyes and nosebleeds. Later, Chris began to 
experience fatigue, headaches, hand numbness, bloody stools, 
rashes, and welts on her skin. When she showered, she would 
turn red. Tiny blisters covered her entire body. The blisters 
would weep, then her skin would peel.
    This happened several times. Canker-type sores appeared in 
her mouth and down her throat, and they would disappear the 
next day.
    She explained the feeling on her skin was like little 
wheels of needles turning. The racking pain was unbearable.
    She saw her doctor and was given lotions and told she was 
going through menopause, prescribed pain medication, and then 
sent home. The blisters continued for weeks. She would return 
with complaints of pain many times, and was given different 
pain medications. Nothing worked.
    Soon after she was diagnosed with chemical exposure, but 
the doctor was unaware of what the chemicals were that were 
causing her symptoms. We were baffled and sought another 
doctor, who diagnosed the same. Chris' joints began swelling 
and large bumps started appearing on her elbows and hands. 
Months had gone by, and the pain continued. I began to 
experience rectal bleeding, and two of our dogs developed 
tumors. Our neighbor's dogs also had a tumor.
    We planted trees on the property that year, and they all 
died.
    We noticed several dead birds at different times in our 
yard through the next few years. Existing trees on the property 
were dying.
    In 1997, employees from the oil and gas company were on our 
property when we arrived home. We were informed a natural gas 
well was being placed across the street and drilling was going 
to go under our property. They operated for months about 300 
feet from our house. There was an open unlined pit closer than 
the road, and they began flaring. It shook the house day and 
night for weeks.
    Chris lost her voice. We had headaches, burning eyes, and 
odor. The gas well was finished in 1998 and, already having 
problems with her health, the neighbor's water well had 
exploded and fracking fluid spewed, causing them to evacuate 
their home.
    The next day, oil and gas employees came to our door and 
told us to stop drinking our water. They said water would be 
provided. This went on for about 4 months, and the same 
employees told us the water was tested safe for drinking. 
Although the water would fizz like soda with small bubbles, we 
were told the water was safe.
    Sand began to accumulate in our water. If we set a glass of 
water out overnight, an oily, thin film would float on top. We 
stopped drinking it.
    In 2000, Chris began saying words that sounded like a 
foreign accent. A few words in a sentence. Months later, more. 
Now Chris has a severe speech disorder which continues.
    In March 2001, she developed a pituitary tumor. In 2001 our 
water well pump had to be reinstalled 10 feet higher because 
the sand was filling the water well shaft.
    In 2000 we started raising llamas, and we had our first 
baby, which died about 8 months later of respiratory problems. 
Our llama became pregnant again, and that baby died.
    In March 2003 she had another pituitary tumor. In 2003 our 
house was sided with a high-quality siding. In 2004 the paint 
began peeling on the siding. The siding company wouldn't 
warranty the chemical damage. The insurance company wouldn't 
honor the claim from industrial pollution.
    Later, in 2005 Chris' gallbladder had to be removed. It was 
the size of a small pineapple with excessive adhesions in it 
and a tail growing from it.
    In 2006 she was diagnosed with severe chemical sensitivity 
from exposure by an environmental specialist and is being 
treated. Several times Chris said, Something is killing me 
living in this house, so we packed up and abandoned the house 
after trying to sell it for years. We now believe the oil and 
gas industry is to blame for the unexplained illnesses. We now 
have learned by many of our old neighbors that animals and they 
are still suffering from exposures.
    If they were required to produce the information on the 
chemicals used, less people would suffer.
    Thank you.
    [The prepared statement of Mr. Mobaldi follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.081
    
    [GRAPHIC] [TIFF OMITTED] T5610.082
    
    [GRAPHIC] [TIFF OMITTED] T5610.083
    
    Chairman Waxman. Thank you for your testimony. I am sorry 
to hear what you have all gone through, you and your wife.
    Ms. Wallace-Babb.

                STATEMENT OF SUSAN WALLACE-BABB

    Ms. Wallace-Babb. Thank you, Mr. Waxman and Mr. Davis, for 
hearing me today.
    In January 1997, I purchased my property in Morrisania Mesa 
above the town of Parachute, CO. Its residents enjoy 360-degree 
views of varied geological formations, wildlife, irrigation 
water, and mostly excellent neighbors, the kind who still know 
one another and come to help when you need it.
    I had seven irrigated acres for pastures for my horse and 
hay fields, where I grew my own hay. I had a barn, outbuildings 
for the equipment used for haying and organic gardening. I 
could ride my horse from my property onto the BLM lands that 
surrounded me. It was my life's dream come true.
    But it was all ending as the oil and gas industry moved in 
to foul the water, air, land, and lives. My personal experience 
with the oil and gas industry led me narrowly to avoid death. I 
now live a very different life from the one I was living 
seconds before I became chemically damaged.
    I knew about the wells at the end of my rural road that 
were fractured in 2003 or 2004. I wasn't concerned, because I 
believed this industry was regulated to prevent damage, that 
human lives would be deemed worth protecting. In late March 
2005, I began working near the wells as an irrigator. I was 
unknowingly exposed to fugitive gases coming from the two wells 
and open condensate tanks less than 100 feet from the water 
headgate. Within 10 minutes of being at the headgate, I 
experienced a pounding heart rate, weakness, burning sinuses, 
eyes, and skin, coughing, ringing in my ears, and blurred 
vision, but the symptoms gradually abated at home. I didn't 
suspect the wells.
    On April 4th and April 11, 2005, I went to my family doctor 
and an ENT because my sinuses were so raw and painful. I was 
given two rounds of antibiotics, resulting in no improvement. 
My symptoms worsened.
    During May 2005, I was near the wells on a daily basis, 
sometimes twice a day. The original symptoms were greatly 
intensified. I had shooting pain in the nerves of my legs and 
bottoms of my feet, making walking nearly impossible.
    Being home, away from the wells, reduced the symptoms.
    On June 7th and June 15, 2005, I was back at the ENT's 
getting more antibiotics and medicines to reduce respiratory 
inflammation and breathing difficulties. Had I made the 
connection between my symptoms and my increasing time near the 
wells, I would not be writing this. But I didn't.
    At 9 p.m. on June 24, 2005, arriving at work, I stepped out 
of my truck into a cloud of gas from the condensate tanks. With 
one leg out on the ground, I turned to reach the charcoal mask 
I had taken to wearing while I worked at the headgate. 
Suddenly, a crushing headache overcame me and I began to 
collapse. As I was falling, I grabbed the top of my truck door 
and clung there as my consciousness faded. I don't know how 
long I was there.
    As clarity returned, I dove into my truck, grabbed my mask, 
and sat there until I could think.
    From home I called the sheriff to report something going on 
at the wells. I called the fire department and the Williams 
Production representative to the site. They were still down 
there at 1 a.m. when I finally fell asleep, despite extreme 
nausea, body pain, and a crippling headache.
    The next morning I awakened to the meaning of being 
chemically sensitized: all the original symptoms plus vomiting, 
explosive diarrhea, bloody mucus from nose and lungs, 
headaches, tiny ulcers, mental fogginess, and neurological 
problems.
    On July 4th I called the Colorado Oil and Gas Conservation 
Commission [COGCC]. I heard nothing until I told my story in 
front of a full audience during a COGCC meeting in Rifle, CO, 
on July 11, 2005.
    I finally was given a report that said one of the 
condensate tanks created the gas cloud. The report said this 
off-gassing was a common event.
    Williams Production's solution was to place a top on the 
tank. No one was concerned about the damages I received. One of 
the two regulators for hundreds of wells in Garfield County 
came to my house during July or August, along with the Williams 
Production representative, promising to help me in any way 
possible. When I called the Williams representative asking what 
chemicals I was exposed to for my doctor's information, I was 
told no one in that company knew what chemicals were in 
condensate and no records were kept of such incidents.
    The next I heard from Williams was by letter from their 
senior attorney in Oklahoma. She assured me Garfield County had 
everything under control and there were no chemicals involved 
with oil and gas production that were harmful to people. Since 
I no longer could expose myself to the air inside or outside my 
house without triggering all the symptoms, I put little faith 
in her words.
    My family doctor diagnosed me as chemically sensitized by 
the event, and said I wouldn't be able to tolerate the 
environment that had been healthy for me for nearly 10 years.
    I must avoid the air until I could sell my house and find 
some environment I could tolerate. I purchased three powerful 
air cleaners, closed my house up tight, and wore a full-face 
respirator with gas-neutralizing cartridges each time I went 
outside to do minimal chores.
    The approaching winter showed me my natural gas heating 
used for nine previous winters now triggered all my symptoms, 
plus hives. With four electric space heaters, I maintained a 
58-degree temperature inside and was a prisoner inside my 
house.
    Through intense research online and conversations with 
scientists, doctors, and EPA toxicologists in Denver, it became 
apparent that one of the chemicals that had damaged me was 
hydrogen sulfide. Each scientist I spoke with told me I was 
lucky to be alive, because I had been exposed to high levels of 
hydrogen sulfide that caused my collapse and loss of 
consciousness. The fact I was able to cling to the truck door 
avoided me hitting the higher levels of gas.
    It took 9 months to find a place where I could breathe the 
air without triggering symptoms. I have spent thousands of 
dollars being evaluated and treated by environmental doctors. I 
still don't know the full extent of the physical damage. I am 
hopeful the resultant neurological problems will stabilize.
    So has the oil and gas industry changed my life? Yes. It 
has caused me to lose my home, my friends, my way of life, my 
health, and my belief in my Government. I once believed 
Governmental agencies like the EPA protected its citizens. I 
now know the EPA has been stripped of its power to do its 
defined job.
    All of the activities related to exploration for and 
recovery of oil and gas are exempt from the laws made to 
protect our environment and citizens. The oil and gas industry 
in Colorado is regulated by those who benefit from 
irresponsible actions. In a situation where the fox guards the 
hen house, it is deadly being a hen.
    Thank you.
    [The prepared statement of Ms. Wallace-Babb follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.084
    
    [GRAPHIC] [TIFF OMITTED] T5610.085
    
    [GRAPHIC] [TIFF OMITTED] T5610.086
    
    [GRAPHIC] [TIFF OMITTED] T5610.087
    
    Chairman Waxman. Thank you very much for your testimony. 
That was very moving to hear what you have gone through, and I 
want to extend my sympathies to you.
    Dr. Bolin.

                  STATEMENT OF DAVID E. BOLIN

    Mr. Bolin. Good morning, Chairman Waxman, Ranking Member 
Davis, and members of the committee. My name is David Bolin, 
and I am the deputy director of the State Oil and Gas Board of 
Alabama. I am representing the Board, the State of Alabama, and 
other member States of the Interstate Oil and Gas Compact 
Commission [IOGCC].
    I am here today to address the proposition that two 
provisions of the Energy Policy Act of 2005--that being section 
327 concerning hydraulic fracturing, and section 328 regarding 
stormwater--have resulted in harm to drinking water resources 
in the United States.
    The evidence would strongly suggest otherwise. These two 
provisions simply removed unnecessary administrative burdens on 
the production of oil and natural gas in the United States.
    Let me first begin by addressing the hydraulic fracturing 
issue. I am a groundwater hydrologist and a petroleum engineer 
by training and I have served in technical and supervisor roles 
with the Board since 1982. My first responsibility with the 
Board was to develop and implement the State's class two UIC 
program, which was approved by EPA in August 1982. Prior to 
that time, the Board had actively implemented groundwater 
protection programs to include the regulation of hydraulic 
fracturing operations. Protecting drinking water resources is 
part and parcel of every State's conservation statute, which 
preceeded the establishment of the Safe Drinking Water Act.
    In the LEAF v. EPA legal proceedings, the 11th Circuit 
Court of Appeals ruled in favor of LEAF, holding that hydraulic 
fracturing constitutes underground injection, and therefore 
must be regulated as such under the Safe Drinking Water Act. 
The court did not reach any finding of actual harm to drinking 
water, deciding the matter strictly on the definitional issue.
    The State of Alabama was then required to revise its class 
two UIC program. The end result has been higher operating costs 
for the producers and significantly higher administrative costs 
for the State.
    In June 2004 EPA published a final report summarizing a 
study to evaluate the impacts on underground sources of 
drinking water by hydraulic fracturing of coal-bed methane 
reservoirs. In that report, EPA found no confirmed drinking 
water well contamination cases linked to hydraulic fracturing. 
National surveys conducted by the Groundwater Protection 
Council and IOGCC support the conclusions reached by EPA.
    State regulatory agencies have a proven track record with 
regulations that are in place now. These regulations have 
proven sufficient to adequately protect public health and the 
environment from hydraulic fracturing operations.
    Stormwater discharge management became an issue when it was 
determined that EPA's proposed rule could have a significant 
cost impact on the oil and gas industry, even though the 
industry was not the focus of the rulemaking, and even though 
there was no indication of inadequate regulation during 
construction related to oil and natural gas activities.
    In response, the States, through IOGCC, and the industry 
engaged working groups to examine the matter. The State's 
working group found that it was not feasible to develop a 
single standard to fit the diverse requirements for appropriate 
stormwater discharge management throughout the United States. 
It concluded that States had been managing discharges at large 
sites and that there was no indication of a significant threat 
to the environment from stormwater discharges by small 
exploration and productionsite activities.
    The industry effort resulted in the creation of a document 
entitled, Reasonable and Prudent Practices for Stabilization 
[RAPPS], as an effective voluntary tool for reducing pollutants 
in stormwater discharges.
    Based on the conclusions of the IOGCC study, the States are 
already adequately regulating this activity, supplemented by 
improved industry practices based on RAPPS, the conclusion can 
be drawn that there has been no adverse environmental impact as 
a result of the passage of section 328 of the Energy Policy 
Act.
    Elimination of sections 327 and 328 would not make 
production of oil and natural gas in the United States any 
safer, but could substantially increase domestic oil and 
natural gas production costs, thereby decreasing domestic 
supply.
    In conclusion, I would say that the sections 327 and 328 
have not resulted in harm to drinking water resources in the 
United States and do not need to be eliminated. Instead, the 
regulations at the Federal and State level should focus on that 
which will, in fact, further protect public health and the 
environment.
    Thank you for the opportunity to appear here today. If we 
can provide any additional information, please do not hesitate 
to ask.
    [The prepared statement of Mr. Bolin follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.088
    
    [GRAPHIC] [TIFF OMITTED] T5610.089
    
    [GRAPHIC] [TIFF OMITTED] T5610.090
    
    [GRAPHIC] [TIFF OMITTED] T5610.091
    
    [GRAPHIC] [TIFF OMITTED] T5610.092
    
    [GRAPHIC] [TIFF OMITTED] T5610.093
    
    [GRAPHIC] [TIFF OMITTED] T5610.094
    
    [GRAPHIC] [TIFF OMITTED] T5610.095
    
    [GRAPHIC] [TIFF OMITTED] T5610.096
    
    [GRAPHIC] [TIFF OMITTED] T5610.097
    
    [GRAPHIC] [TIFF OMITTED] T5610.098
    
    [GRAPHIC] [TIFF OMITTED] T5610.099
    
    Chairman Waxman. Thank you very much, Dr. Bolin.
    We are now going to proceed to 5 minutes for each Member to 
ask questions or make comments. I am going to recognize myself 
first.
    It is easy to get lost in the jargon of the oil and gas 
industry, so I would like to briefly clarify one of the issues 
we are discussing today, that is hydraulic fracturing.
    Ms. Mall, hydraulic fracturing is the practice of injecting 
hundreds of thousands of gallons of a chemical solution into 
the ground at high pressure in order to fracture underground 
formations and enhance natural gas production; is that correct?
    Ms. Mall. Yes, sir.
    Chairman Waxman. And EPA has found that hydraulic 
fracturing is routinely conducted on formations within 
underground sources of drinking water; is that correct?
    Ms. Mall. Yes.
    Chairman Waxman. And, Dr. Colborn, how easy is it to learn 
what the chemicals are that are being injected into these 
sources of drinking water?
    Ms. Colborn. It has been very difficult. Thank goodness for 
the Oil and Gas Accountability Project, who has lawyers who are 
able to get us some of this information. We have never been 
able to get the full disclosure of what is being shipped into 
and used in western Colorado, and then when we do get a 
product, if you look at the name of the product and then try to 
find out anything about it, you will find that you may get 1 to 
2 percent of the content, 50 percent of the content, but you 
never know what the full amount of chemicals are in this 
particular product.
    Even if you look at an MSDS sheet, they may list one or two 
chemicals----
    Chairman Waxman. What is MSDS?
    Ms. Colborn. Material Safety Data Sheet, which must 
accompany anything that might be harmful on immediate use, and 
it is there for the use of the handlers who are using it 
directly or in case of accidents or spills, so it is there for 
the emergency cleanup people, as well.
    Very, very seldom do you get the full content of what is in 
the product.
    Actually, I should have brought one with me. We just found 
one yesterday that came in where the name of the product and 
then everything in it was proprietary. So we keep running into 
the word proprietary.
    Chairman Waxman. Why wouldn't the companies just disclose 
information as to what chemicals are in the fracturing fluid?
    Ms. Colborn. Well, I have asked the companies about that, 
and basically when they make a product that they think is going 
to facilitate releasing gas or making drilling easier, there 
are companies now in competition doing this. Haliburton makes 
products, Encada makes products under the name of CalFrac.
    Chairman Waxman. So it is proprietary?
    Ms. Colborn. So they claim it is proprietary and they don't 
want others to know.
    Chairman Waxman. OK. Is there evidence to suggest that we 
should have concern about these chemicals being in our drinking 
water?
    Ms. Colborn. Yes.
    Chairman Waxman. Your research shows that they commonly 
contain toxic substances that are known to cause adverse health 
effects.
    Ms. Colborn. Yes.
    Chairman Waxman. Is that the concern?
    Ms. Colborn. Yes. As I said, 91 percent of the products had 
one or more effect. That was in Colorado. We are breaking them 
out by State and trying to keep the States separate.
    Chairman Waxman. Mr. Mobaldi, I want to thank you again for 
testifying today. I know it must be hard to discuss the 
situation you and your wife have endured.
    Did you have any symptoms before the drilling activities 
began near your home?
    Mr. Mobaldi. None at all.
    Chairman Waxman. And did any of the symptoms go away after 
you moved away from the drilling activities?
    Mr. Mobaldi. Some of them, but it seems that detoxing takes 
quite a while.
    Chairman Waxman. Dr. Teitelbaum, I know you can't make a 
diagnosis. I am not asking you to do that. But these kinds of 
situations are awfully hard to deal with in hindsight when we 
don't have adequate information. In this case, we have oil and 
gas activities near the Mobaldi's residence, oily films 
appeared in their drinking water, they got sick, and all of 
this is occurring in the context of an unregulated activity in 
which undisclosed chemicals are being widely used in sources of 
drinking water.
    As a medical toxicologist, what insights can you give us 
into this situation?
    Dr. Teitelbaum. Mr. Chairman, the problem we have is that 
none of us have adequate information. I helped to work on the 
hazard communication standard, the OSHA hazard communication 
standard, which requires that material safety data sheets give 
this type of information and, in fact, that those data sheets 
be made available to a treating physician who, with that in his 
hand or her hand, might be able to put together the symptom 
complex described, the physical findings, and the materials to 
which the individual is exposed.
    However, because of the proprietary exemption in those, 
most of the active chemicals don't appear on the material 
safety data sheet.
    Chairman Waxman. Yes.
    Dr. Teitelbaum. And it is extremely difficult, although 
theoretically possible, to get that information by a physician, 
but it is terribly difficult at any given time.
    Chairman Waxman. Would it be prudent for the companies to 
at least disclose the chemicals that they are injecting into 
the drinking water?
    Dr. Teitelbaum. Absolutely. I think the reality is there 
should be a community right to know provision so that the 
community, itself, is provided with that information. The 
physicians then have it available and it is an open process.
    Chairman Waxman. Thank you very much for your testimony.
    Dr. Teitelbaum. Thank you, Mr. Chairman.
    Chairman Waxman. Mr. Davis.
    Mr. Davis of Virginia. Let me just pick up on that. Dr. 
Bolin, let me just ask you, from the regulatory side, would 
there be any problem with disclosing what they are putting in 
the wells?
    Mr. Bolin. I don't think so. I think it is more of a 
competitive type situation that they claim proprietary 
information. I will say that in the years since we have revised 
our UIC program to implement our program to do hydraulic 
fracturing, we have required the operators to comply, basically 
to provide affidavits as to what those components are, and they 
have done that for us.
    Mr. Davis of Virginia. That seems pretty common sense.
    It is a fact that when diesel is utilized in this, that 
does have some very dangerous components; isn't that a fact?
    Mr. Bolin. Yes, sir. That is true.
    Mr. Davis of Virginia. And is diesel utilized much today?
    Mr. Bolin. It is not used at all in Alabama in regard to 
hydraulic fracturing.
    Mr. Davis of Virginia. But it is not illegal anywhere?
    Mr. Bolin. I do know that the EPA executed a memorandum of 
agreement with the major service companies that handle about 95 
percent of fracking operations in which they agreed not to use 
diesel in fracking operations.
    Mr. Davis of Virginia. That is good for the 95.
    Mr. Chairman, I have just a couple of letters that were 
submitted to us in the record. One is from the American 
Petroleum Council and the other from the Groundwater Protection 
Council, if we could put these in the record.
    Chairman Waxman. Without objection, that will be the order.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.100
    
    [GRAPHIC] [TIFF OMITTED] T5610.101
    
    [GRAPHIC] [TIFF OMITTED] T5610.102
    
    [GRAPHIC] [TIFF OMITTED] T5610.103
    
    [GRAPHIC] [TIFF OMITTED] T5610.104
    
    [GRAPHIC] [TIFF OMITTED] T5610.105
    
    Mr. Davis of Virginia. Let me ask Mr. Mobaldi. What a 
terrible story, and I appreciate your being here to share this 
today. I was just looking over the records from the State of 
Colorado and their Oil and Gas Conservation Commission. I know 
they tried to come and looked at the wells and the property and 
inspected. According to their letter, you wouldn't let them on. 
That was your attorney's advice?
    Mr. Mobaldi. Yes.
    Mr. Davis of Virginia. So they never really had a chance to 
come on and do the comparison so that they could take a look at 
what the components were; is that right? Or did anybody?
    Mr. Mobaldi. They eventually did come on the property and 
do some testing, but we were unable to get the results because 
Encana had to approve it.
    Mr. Davis of Virginia. OK. So there are some results 
somewhere, is what you are telling me?
    Mr. Mobaldi. I think so.
    Mr. Davis of Virginia. OK. I think really having that 
linkage would be very, very important for the record. That may 
be something, Mr. Chairman, we could have the committee look 
at, if there are some results from that. That could help tie 
this down a little bit more.
    Let me ask Dr. Colborn, Our Stolen Future, your book, was 
mentioned at a hearing we did last year on the fish in the 
Potomac River, where we found endocrine disruption, that common 
contaminants can interfere with the natural signals controlling 
development of the fetus, and we are finding males with eggs 
and premature with eggs and that kind of thing.
    Ms. Colborn. Yes.
    Mr. Davis of Virginia. What is your read on it? Can you 
elaborate on that a little bit more in terms of what ecological 
problems you can have interfering with the endocrine system? 
Does this create dangers for human consumption and the like, or 
are we just not sure where this all goes?
    Ms. Colborn. Right now we are at the stage where we are 
beginning to look at maybe 10 to 15 years of new studies not 
done using toxicological approaches but using different kinds 
of assays to test chemicals at very low doses. The old testing 
protocols used high dose looking for obvious changes and 
cancer. The new testing protocols that are not being done by 
the Government but are in academic laboratories around the 
world now, we have a vast number of studies that support that 
many chemicals can interfere from the moment of fertilization 
until an individual is born that alters how that individual is 
structured and how they behave later.
    Mr. Davis of Virginia. Yes.
    Ms. Colborn. The obvious one, which we discovered way back 
in the 1970's, were the bisexual fish in the Great Lakes. There 
are still fish there. I mean, we stock the Great Lakes to get 
the fish that they want there for the commercial recreational 
purposes, but we now know that some of these chemicals actually 
that are endocrine disruptors, some of the surfactants are 
being used and injected underground. So they are on the list.
    Mr. Davis of Virginia. Are we not doing enough research in 
this area? I mean, we are seeing it everywhere. This is not a 
phenomenon just on the Potomac River. As you noted, it is in 
the Great Lakes and everywhere else. If it is underground, who 
knows what else. Are we not doing enough basic research into 
this area?
    Ms. Colborn. We are not. I would like to talk to you about 
that. Look at the front page of USA Today. There are three 
pages devoted to just two chemicals that have been overlooked, 
and there has been a tremendous amount of suppression on using.
    I have sat on EPA study groups, you know, the committees 
trying to design these studies to develop these assays, and EPA 
would not give up using the old toxicological approach. Until 
we switch over and start using this new approach, the young 
people and the new people who are coming along doing endocrine 
research, starting with low doses, looking at embryonic 
development, we are not going to get these chemicals out of our 
environment. They are slipping through our safety net, truly.
    Mr. Davis of Virginia. Thank you very much.
    Ms. Colborn. Thank you.
    Mr. Higgins [presiding]. Thank you, Mr. Davis.
    On the issue of injecting diesel fuel, in 2002 it was 
publicly revealed that gas and oil companies were using diesel 
fuel as a hydraulic fracturing fluid. That meant that oil and 
gas companies were injecting diesel fuel directly into 
underground sources of drinking water in order to enhance oil 
and gas production.
    In 2003, the Environmental Protection Agency entered into a 
voluntary agreement with Haliburton and two other companies to 
discontinue the practice of injecting diesel fuel directly into 
sources of drinking water. Unfortunately, the agreement was in 
no way mandatory or binding. The EPA was concerned that using 
diesel fuel for hydraulic fracturing could introduce BTX 
chemicals into drinking water.
    Dr. Teitelbaum, could you tell us what BTX chemicals are 
and why exposure to them would be of concern?
    Dr. Teitelbaum. The BTX chemicals are benzene, toluene, and 
xylene. Benzene is a class one human carcinogen, probably one 
of the best-studied chemicals in industrial use. Its presence 
is extremely threatening, not only as a carcinogen, but also as 
a liver toxin, developmental toxin, and so on.
    Toluene and xylene are at the moment not considered to be 
carcinogenic as class one as benzene is listed; however, they 
are both highly toxic. They are neurotoxins. They are 
developmental toxins. When they are present in potable water--
let's not say drinking water just for the moment, but potable 
water used for all sources of domestic water supply--it is 
common that people shower with that water. The dose delivered 
of these volatile organic chemicals through showering is far 
greater than the dose delivered through drinking water.
    Mr. Higgins. Right.
    Dr. Teitelbaum. And in many situations people have 
substitute drinking water supplies but continue to use their 
well water as the source of general domestic water, and the 
dose simply stays very high, even though they believe, because 
they are drinking a different source, their dose of BTX 
chemicals has gone down.
    Mr. Higgins. Another question. By eliminating diesel fuel 
from hydraulic fracturing fluids, do we completely eliminate 
any chance of introducing BTX chemicals to underground sources 
of drinking water? Or can BTX chemicals be found in other 
substances, as well?
    Dr. Teitelbaum. Well, they are naturally present in crude 
oil, Mr. Higgins. They are also present in the condensate, and 
so there is every reason to believe that, as the gas is 
extracted from the ground, there is contamination by the BTXes 
carried in the fugitive gas and the crude oil being extracted, 
and so on.
    What has happened with the industry is the fractionation 
fluids are using different molecular weight oils, higher 
molecular weight, where you never really eliminate the low 
molecular weight chemicals, even if you go to a different 
compound or a different mix, something not called diesel fuel. 
You still have BTX from that, as well.
    Mr. Higgins. I see.
    So if diesel fuel is actually eliminated from use, can we 
be confident that BTX chemicals will be completely eliminated 
from hydraulic fracturing fluids?
    Dr. Teitelbaum. On the contrary. I think we would be 
certain that they were still present, although perhaps in lower 
concentration.
    Mr. Higgins. Well, the EPA tells us that they were worried 
about BTX chemicals being injected into the underground sources 
of drinking water, so they seek a voluntary commitment from oil 
and gas companies to not use diesel fuel in fracturing fluids; 
however, BTX chemicals are found in other petroleum products in 
addition to diesel fuel, and there is no limitation on their 
use of these petroleum products.
    My question is: wouldn't it make more sense to simply 
prohibit BTX chemicals from being used in hydraulic fracturing 
fluids?
    Dr. Teitelbaum. That would certainly be reasonable to do 
that. We would still not eliminate the problem. We would have 
to monitor the drinking water because of the other sources.
    Mr. Higgins. OK.
    Mr. Shays.
    Mr. Shays. I appreciate the majority having a hearing on 
this issue, and I am sorry I wasn't here for all of our 
witnesses' testimony. This is a hugely difficult issue because 
we want energy independence, we want a quality of life that 
improves, doesn't put us in jeopardy, we want a clean 
environment, and we want to deal with global warming. I will 
tell you, as a Member of Congress, sometimes you feel like you 
are punched in the stomach because everything is moving so 
quickly and you begin to wonder if we have the capability to 
deal with it. We do if we are going to be honest with each 
other.
    One of the challenges becomes that we all seem to be asked 
to be politically correct, so when I ask questions, then people 
evaluate my questions as if somehow I have my mind made up or I 
am insensitive. I don't mean to be insensitive on these issues. 
I tend not to like trial lawyers, and lawyers can keep you out 
of jail, but they make you look guilty as hell.
    Mr. Mobaldi, I want to first say to you I am very moved by 
your testimony. I believe it is very sincere, and I happen to 
believe that we totally underestimate chemical exposure. This 
committee that I was chairman of was really working on the 
issue of chemical exposure to our soldiers and our military 
personnel in the Gulf war, but for me it is difficult to 
understand why the lawyers should have anything to do with 
whether or not your well is tested. If your well is not 
healthy, test the well and know. The only implication I can 
concur is that your lawyers didn't want the well to be tested 
because there may not be anything wrong with your well. Why 
would they not want your well tested?
    Mr. Mobaldi. They wanted to be present when it was tested.
    Mr. Shays. That is fair. And why wouldn't you have it 
tested?
    Mr. Mobaldi. I don't know what coincided with the testing 
people and the lawyers.
    Mr. Shays. I mean no disrespect at all, because I really 
believe that you have a very serious problem and I believe 
there was chemical exposure. That is intuitively what I 
believe. There would be more credibility if you eagerly wanted 
the well tested, all parties there. You tested it yourself with 
the other parties there, and let's find out.
    Mr. Mobaldi. I tried to get it tested on my own and I 
couldn't get anyone to do it.
    Mr. Shays. OK. Well, bottom line is: let them test it, but 
let your people be there, and let's get it done.
    Mr. Mobaldi. Right. Well, we no longer own the property.
    Mr. Shays. OK. That is a significant factor.
    What I think has to be at the very top of all our concerns 
is the water table, more than anything else. I am stunned that 
people keep moving to parts of the southwest oblivious to a 
huge challenge that we are going to have in the future, and we 
in Government don't seem to want to deal with that issue 
because there are so many issues on our plate. But I would like 
someone to tell me if they think there is anything more 
important than the water quality and the water table. What 
would be more important than that issue? Dr. Colborn.
    Ms. Colborn. May I just add something here? I was amazed 
how that came across. It is the stuff that is coming off right 
immediately. It is the air pollution that is contributing to 
the problem.
    Mr. Shays. OK.
    Ms. Colborn. It is the air that the people are breathing, 
apparently. This is what I didn't understand. What we are 
looking at is the immediate exposure during the activity of the 
development of the well, the action of the well, the equipment 
that is running. They are producing volatile compounds, and it 
is the volatile compounds that seem to be affecting these 
people early on.
    Mr. Shays. So you mean more than the quality of the water 
it is the air?
    Ms. Colborn. It is the air, as well. And believe me----
    Mr. Shays. Let me ask you, once the water is contaminated, 
it becomes a much more difficult long-term problem to resolve, 
doesn't it?
    Ms. Colborn. That is right. One of the products that got me 
involved in this is a problem called 2BE, tubutoxyethanol. It 
is odorless, it is colorless, and tasteless, and it mixes with 
water. It evaporates at room temperature. I began thinking 
about that being injected underground, if it came up into 
someone's home in the water it would evaporate.
    Mr. Shays. Let me ask----
    Ms. Colborn. And they would be breathing it, just as Dr. 
Teitelbaum mentioned.
    Mr. Shays. Ms. Mall, how do you come down on this issue 
between water quality and the quality of the air? They are both 
important, but which becomes the more difficult issue to deal 
with?
    Ms. Mall. Well, ultimately I would really hate to have to 
make a choice. One of the issues that we are dealing with----
    Mr. Shays. They are both bad.
    Ms. Mall. Right.
    Mr. Shays. Which is the more difficult issue to deal with 
in the long run? Isn't it true that it is easier to clean up 
our air than it would be to clean up the water table if the 
water table becomes contaminated?
    Ms. Mall. Once the water is contaminated, actually, there 
is a GAO report from 1989 that says it can take up to 250 years 
for a natural underground aquifer to start cleaning itself, 
because the water migrates so slowly.
    Mr. Shays. And my argument, if I can just make this last 
point, my argument would be people are going to see the air, 
they are going to feel it, they are going to demand it be 
cleaned up, and the long-term damage, there is clear damage, 
but the long-term damage is not as great as it will be. Once 
the water table is contaminated, it seems to me we have an 
unbelievable problem.
    Now, would the argument be that the water table would only 
be contained in a small area, or would it continue to expand if 
nothing is done to clean it up? That is my last question.
    Ms. Mall. Well, the water can migrate, and part of the 
problem when you are dealing with underground is we don't 
really know where it goes or where it is going to come up.
    One of the things the GAO report looked at were abandoned 
wells that were never plugged properly. Lots of the new wells 
are near abandoned wells, for example, and the water can 
migrate not only underground but through the wells that were 
never plugged properly.
    There are examples in Colorado and in Wyoming of places 
where chemicals originally from wells have migrated.
    One of the issues we are dealing with, these laws where 
there is a range of loopholes for air or water or ground 
contamination, and some of these chemicals can be found in all 
of these places. For example, hydraulic fracturing, there might 
be chemicals left underground. Research shows that up to 30 
percent of the chemicals may be left underground in a hydraulic 
fracturing operation. They may contaminate groundwater. Those 
chemicals, when they come up to the air, may evaporate and 
contaminate our air. And they may be left in a disposal pit 
that could be breached, for example, and contaminate the 
ground.
    One of the things we are talking about today, I know you 
talk about a tradeoff. NRDC does have a very detailed proposal 
for energy security; it relies on efficiency and renewables. I 
don't have the details of that today, but we don't think that 
cleaning up oil and gas exploration production is inconsistent 
with energy security. I think that is a really important point.
    Mr. Davis talked about solutions, and really we are talking 
about solutions today. The fact is that there is information 
from State and Federal agencies and other researchers about 
solutions for all of these types of pollution. They are 
available. They are affordable. In many cases they are 
profitable for industry.
    I quoted in my spoken testimony an industry official in a 
newspaper article who said it was a win/win situation, and it 
really can be.
    Mr. Shays. Thank you.
    Chairman Waxman [presiding]. Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    I am a little confused. I thought, Dr. Bolin, you might be 
able to answer my question. I apologize for not being here, but 
I have been up in my office watching. What I picked up, I 
think, from your testimony is you have been a regulator for 
about 25 years?
    Mr. Bolin. Yes, sir, that is correct.
    Mr. Cannon. So you are not bought by industry?
    Mr. Bolin. No, sir, not at all.
    Mr. Cannon. Great. That is so good to hear, because I have 
heard from several people asking questions here the 
characterization that we are injecting these chemicals into 
drinking water, into potable water. Is that happening? That was 
done in connection with coal-bed methane, which I think you are 
particularly the expert in, but as a practical matter, when we 
are doing fracking with gas, that is at a much, much deeper 
level, and so I am quite confident that is not the issue here.
    Are we, in the relatively more shallow environment of coal-
bed fracking, injecting these chemicals into drinking water?
    Mr. Bolin. Well, I can tell you what our situation is and 
our experience has been in Alabama. We have coal beds that do 
exist at shallower depths than most conventional oil and gas 
resources, and they are within what is defined by EPA as 
underground sources of drinking water, which is defined as 
anything less than 10,000 milligrams per liter of chlorides. It 
does not mean that is being used as drinking water.
    In our program, we evaluate each fracturing operation and 
we find and we review all of the groundwater wells that are in 
the area, and typically we obtain our drinking water from 
wells, they are in the depths of typically 50 to 200 feet.
    In our circumstances, most coal beds that are being 
produced are greater than 1,000 feet in depth, and we will 
review each frack to ascertain and to ensure that these 
fracking operations would not reach the shallower depths and 
have a possibility of compromising anyone's water supply wells.
    I would also say that we receive affidavits, sworn 
statements from the operators and from the service companies 
after reviewing their information that they provide on the 
components of the hydraulic fracking fluids where they aver 
that the applicable parts of the Safe Drinking Water Act, as it 
relates to drinking water standards, are complied with, and 
State staff people, technical people, review those and verify 
that is, in fact, the case.
    Mr. Cannon. Could we focus just for a moment on the 
verification?
    Mr. Bolin. Yes.
    Mr. Cannon. There are ways to verify things that these 
companies, these for-profit--I think somebody actually made a 
big point out of the for-profit nature of these companies. 
There is a great deal about this process that can be verified?
    Mr. Bolin. Yes, sir. Yes, sir, our current revised UIC 
program that includes hydraulic fracking, we do that in 
Alabama, and we do receive that information.
    Mr. Cannon. Let me just ask another question, because my 
time is up. Dr. Teitelbaum talked about these compounds as 
being naturally occurring. There is a current commercial--I 
think it is Geico maybe--where Jeb of the Beverly Hillbillies 
shoots into the ground and oil comes out, and then it says buy 
insurance or something. But, of course, that was a great show 
when it was a current show. We do have these compounds 
occurring close enough to the surface in some cases where maybe 
a shotgun could create an oil well? I don't know. But they are 
at various levels.
    We have a problem with these kinds of compounds. Is there, 
Dr. Bolin, a clear connection anywhere that you are aware of 
between fracking and the pollution of people's groundwater 
wells or the potable aquifer that we tap?
    Mr. Bolin. No, sir. And, as I alluded to in my testimony, 
there has been surveys and studies done where we have obtained 
information from the various State regulatory agencies. As I 
indicated, there have been no confirmed groundwater well 
contaminations that have resulted from hydraulic fracturing in 
studies that were done by EPA and national organizations such 
as the Groundwater Protection Council and the Interstate Oil 
and Gas Compact Commission.
    Mr. Cannon. Mr. Chairman, I recognize my time has expired. 
Let me just add that we have cases of individuals who are hurt 
here, and I appreciate those cases. The problems are complex, 
and I hope that, as we develop policy, we will do it in the 
context of science.
    Thank you. I yield back.
    Chairman Waxman. Thank you very much.
    Mr. Sali.
    Mr. Sali. Thank you, Mr. Chairman.
    Dr. Bolin, I guess I am kind of confused, because I hear 
you saying on the one hand that there has been a study that 
there has been no contamination of water resources from 
fracturing, from the study that you referred to; is that 
correct?
    Mr. Bolin. That is correct.
    Mr. Sali. Well, I am not sure who to direct this question 
to. Maybe Ms. Mall. Are you suggesting that there is something 
that is not measured, or that somehow the report is faulty? I 
mean, Dr. Bolin is saying there is no indication that there has 
been any pollution. Are you saying there is pollution? And if 
so, what is it and how is it we missed it?
    Ms. Mall. Certainly the testing is an issue. If the public 
doesn't understand what chemicals might be involved, doesn't 
have that information, and doesn't know what to test for, it 
can be easy not to find something if you are not actually 
looking for it. That is a really important issue.
    The EPA study from 2004 found that, in some cases, 
hydraulic fraction fluids are injected directly into 
underground sources of drinking water.
    Mr. Sali. Let me ask you this. Are you saying there are 
things that are in the water from fracturing that we are not 
measuring?
    Ms. Mall. I think in some cases that has definitely been 
the case. Yes.
    Mr. Sali. So you are saying there is some kind of pollution 
going on that we don't know about and that we are not 
measuring?
    Ms. Mall. That is my understanding. That is one of the 
issues in Alabama in the LEAF case that not all chemicals that 
could have been involved in the hydraulic fracturing were 
tested for.
    Mr. Sali. But we could find those if we did additional 
testing?
    Ms. Mall. It may be. Dr. Colborn's research--and she can 
speak more to this than I can--has shown that there is a 
universe of chemicals that may be used in hydraulic fracturing.
    Mr. Sali. OK. Dr. Colborn, let me I guess direct this to 
you then. Is this just a matter of additional testing?
    Ms. Colborn. This is a matter of additional testing, and if 
we had access to what is being used we would know what to look 
for.
    There was an incident in Garfield County right near----
    Mr. Sali. Let me stop you right there.
    Ms. Colborn. OK.
    Mr. Sali. Are you saying that there is no way to do 
sufficient testing of water today without somebody telling you 
what to look for?
    Ms. Colborn. That is right. Yes, because there is such a 
broad expanse of chemicals of different classes, and so it is 
very expensive to do this analysis to begin with, to know even 
what to look for, just to start looking for the BTX and the 
methane and----
    Mr. Sali. OK. Thank you.
    Dr. Bolin, do you agree with that, that there is no way to 
know what to look for unless somebody tells you what to look 
for? There is no way to find what is in the water unless 
somebody tells you what to look for?
    Mr. Bolin. From our standpoint as State regulators, we do 
everything and base all of our decisions on sound, technical 
data, and we try to obtain sufficient technical data to----
    Mr. Sali. Let me ask the question a different way.
    Mr. Bolin. OK.
    Mr. Sali. Do you ever find things that you haven't been 
told look for this but you find it anyway in testing?
    Mr. Bolin. No, sir.
    Mr. Sali. So it is just a matter of knowing what to look 
for? That is the whole issue here?
    Ms. Colborn. That is why I am here to ask for full 
disclosure. Yes.
    Mr. Sali. OK. And is your point, Dr. Colborn, that somehow 
the Federal Government has to be involved and that this isn't 
something that the States can do?
    Ms. Colborn. Definitely, because this chemical testing is 
expensive. States don't have the money. Colorado hasn't had the 
money to do the testing. People like Steve Mobaldi and Susan 
had no place to send their water. I was lucky. I was working 
with a lab in Texas. I was able to send something away, but 
they did it for me out of kindness of their heart.
    Mr. Sali. Dr. Bolin, do you agree with that, that somehow 
the Federal Government can do something efficiently that the 
States can't do?
    Ms. Colborn. Yes.
    Mr. Sali. I am asking Dr. Bolin.
    Mr. Bolin. Well, I would say that our experience has been 
that the States can do things more efficiently, and have the 
expertise to do it if they have the resources to do that. Quite 
often, resources may be at issue in terms of the extent of the 
testing and that type of thing. But LEAF and Alabama have been 
able to conduct the tests that we need to determine the 
constituents in hydraulic fracturing operations.
    Mr. Sali. Mr. Mobaldi, you don't own your place any more? 
When did you sell that?
    Mr. Mobaldi. We abandoned it.
    Mr. Sali. I thought you said earlier it belongs to someone 
else.
    Mr. Mobaldi. It does now. Somebody has moved into it.
    Mr. Sali. And as a part of that sale did you disclose the 
issues that you had been having?
    Mr. Mobaldi. I had nothing to do with the sale.
    Mr. Sali. You weren't the owner?
    Mr. Mobaldi. Well, my wife and I, we just walked away from 
the property. It was foreclosed on. The disclosure went to the 
mortgage company, I believe. It went to the real estate company 
when we tried to sell it.
    Mr. Sali. Do you know if the current occupants are having 
the same kind of problems that you had?
    Mr. Mobaldi. I don't know. I have no idea.
    Mr. Sali. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Sali.
    Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Neubecker, your organization is committed to protecting 
trout habitat across the country. What do you see as the 
biggest threat to maintaining healthy watersheds for trout 
population? It is my understanding that there are some pretty 
standard mitigation practices to help deal with the stormwater 
runoff problem associated with constructionsites. It is also my 
understanding that these mitigation measures are fairly 
universally applied to constructionsites and other industries 
besides oil and gas, so I would like your comment on that.
    Mr. Neubecker. Well, I would think that at the national 
level development and encroachment on habitat, both of aquatic 
species and for wildlife, is the biggest single threat right 
now. Especially in the stream ecosystems, sedimentation is 
probably by far and away universally the biggest single threat. 
It is in the west. It is the biggest problem we have.
    All other development activity does have to comply with 
stormwater discharge regulations in construction, and not just 
during the construction phase but also during the entire time 
that ground is exposed to the elements.
    Mr. Kucinich. What about the mitigation practices? Are 
there some that are pretty standard?
    Mr. Neubecker. There are some pretty standard mitigation 
practices.
    Mr. Kucinich. Can you describe them?
    Mr. Neubecker. Things like silt fencing, contouring, 
revegetation.
    Mr. Kucinich. Sediment fence, hay bales? Are those 
standard?
    Mr. Neubecker. Things like that, yes, and also detention 
ponds that can catch larger events where the water can clear 
up.
    Mr. Kucinich. Now, is it true that even a person building a 
home, for example, has to take steps to protect against 
stormwater runoff?
    Mr. Neubecker. In many places, yes. I had to do that when I 
built my house in Needle.
    Mr. Kucinich. In 2005 the Energy Policy Act exempted 
construction of oil and gas production facilities from the 
Clean Water Act stormwater rules, didn't it, Mr. Neubecker?
    Mr. Neubecker. Yes, it did.
    Mr. Kucinich. And it doesn't make sense to me that everyone 
is required to take common sense efforts to prevent sediment 
runoff except the oil and gas industry. Does that make sense to 
you?
    Mr. Neubecker. It doesn't make sense that they should be 
exempted from it.
    Mr. Kucinich. Right.
    Mr. Neubecker. It doesn't make sense to me at all.
    Mr. Kucinich. Now, Colorado has State regulations that go 
beyond the Federal stormwater runoff regulations. According to 
your testimony, you were very engaged in putting these 
regulations in place; is that right?
    Mr. Neubecker. Yes, sir.
    Mr. Kucinich. And, Mr. Neubecker, would you say that the 
oil and gas industry is suffering a great deal because they 
have to comply with the stormwater runoff regulations in 
Colorado?
    Mr. Neubecker. Not in Colorado, no, they are not suffering 
at all.
    Mr. Kucinich. So why is it important that the Federal 
Government regulate stormwater runoff when your State has 
already done so?
    Mr. Neubecker. I would say because it is an exemption at 
the Federal level, Federal law that requires this. Plus the 
fact that we need to have a uniform standard across the country 
for this type of activity.
    Mr. Kucinich. Do all States have the ability to regulate 
stormwater?
    Mr. Neubecker. Not all of them, to my knowledge. I know New 
Mexico is one State that does not have that ability to go 
beyond what the Federal Government has done. Colorado does. I 
am not sure. I am not a lawyer, so I am not sure how many 
States do.
    Mr. Kucinich. Thank you very much, Mr. Neubecker.
    Thank you, Mr. Chairman. I yield back.
    Chairman Waxman. Thank you, Mr. Kucinich.
    Mr. Cummings.
    Mr. Cummings. Yes. Thank you, Mr. Chairman.
    One claim that we have heard today is that there is no 
confirmed cases of hydraulic fracturing fluid contaminating 
drinking water wells, which is very interesting.
    Dr. Colborn, your testimony included a description of a 
woman you met in Garfield County with a rare adrenal tumor. You 
stated that hydraulic fracturing fluid used near her home 
contained a chemical that has been shown to cause adrenal 
tumors; is that correct?
    Ms. Colborn. Yes.
    Mr. Cummings. Was there sufficient testing to be able to 
determine if the hydraulic fracturing fluids occurred in her 
drinking water?
    Ms. Colborn. No.
    Mr. Cummings. How long did it take for the company to 
actually test for the chemical of concern in her drinking 
water?
    Ms. Colborn. Three to 3\1/2\ years after the eruption.
    Mr. Cummings. Would you think it would be hard to find 
these chemicals if you waited for years to sample them?
    Ms. Colborn. Definitely. Yes.
    Mr. Cummings. Do you know why it takes so long to do the 
testing?
    Ms. Colborn. Because this isn't what you traditionally test 
for. I know they came in and did test her water, told her her 
water was safe, as I said earlier, and delivered some water to 
her home for her to use, but she was breast feeding a baby 
during this period after this happened for another 18 months. 
She breast fed her baby until she was 2 years old, and they 
were using the water that was being hauled, but also the water 
in their home and the water that was coming into their house, 
they used it for tubs, toilets, dish washing, and that sort of 
thing.
    But they didn't look for 2BE and they don't look for 2BE 
today, or any of a number of the chemicals that are on our list 
that we find that they are using.
    Mr. Cummings. Are you aware, going back to the case that we 
just mentioned, whether there was a settlement in that case?
    Ms. Colborn. Yes.
    Mr. Cummings. So this lady was paid some money in the 
settlement, to your knowledge?
    Ms. Colborn. Yes. She was able to pack up with her family 
and purchase another place and move away.
    Mr. Cummings. Dr. Colborn, the committee actually contacted 
the woman you are referring to, and we had hoped to have her 
testify today. Unfortunately, we learned that as a part of her 
settlement the oil and gas company required her to agree to 
never, never publicly discuss her experience. I can't blame her 
for accepting the settlement for what she went through, but it 
does make it harder for policymakers to understand the scope of 
the problem.
    I would like to introduce into the record a letter from 
Lance Astrella, Mr. Chairman, an attorney in Denver, CO. Mr. 
Astrella represents individuals who are adversely impacted by 
oil and gas production. He confirms that these settlements are, 
indeed, a problem.
    According to Mr. Astrella, ``Claims that are asserted are 
often settled under confidentiality agreements, thereby 
limiting access to information which would be helpful in 
assessing risks associated with oil and gas operations.''
    Mr. Astrella also notes that there has been very little 
effort on the part of Federal or State governments to study the 
potential adverse health impacts associated with oil and gas 
production. This lack of scientific study acts to shield the 
industry from change.
    One of the interesting things, too, you know, I often sit 
in these hearings and I think about whether Members of Congress 
would allow their families to drink this water, whether we 
would allow our families to go through this. Sometimes I do 
believe that there is a disconnect, because the Bible says do 
unto others as you would have them do unto you. I just wonder 
about that sometimes. I guess the answer is clear. They 
wouldn't.
    With that, I will yield back, Mr. Chairman.
    Chairman Waxman. Thank you very much. The letter you talked 
about will be put in the record without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.106
    
    [GRAPHIC] [TIFF OMITTED] T5610.107
    
    [GRAPHIC] [TIFF OMITTED] T5610.108
    
    Chairman Waxman. I want to thank each of your for your 
testimony today. There may be additional questions that Members 
will want to have you respond to in writing for the record, and 
we would very much welcome that.
    Dr. Teitelbaum, there is a Washington lobbyist by the name 
of Michael Berman who wants me to ask you questions for the 
record that you may or may not want to respond to.
    Dr. Teitelbaum. I would be very happy to respond to Mr. 
Berman's questions.
    Chairman Waxman. I told him he should talk to you directly.
    Thank you all very much. We are going to break now.
    Mr. Issa, do you want the panel to come back to answer your 
questions, because we have a vote and I was just dismissing the 
first panel.
    We do have authorization to submit questions in writing and 
have them respond for the record, if that would be acceptable 
to you. If you want to ask questions for the record we can do 
that; otherwise, we are going to have to make them stay here 
while we vote.
    Mr. Issa. I would be glad to come back and ask questions. I 
apologize. I thought I was coming back just in time to ask 
questions.
    Chairman Waxman. I thanked you all too prematurely. If you 
don't mind, we have to respond to some votes. We should be 
back. Let's reconvene at 12:15.
    [Recess.]
    Chairman Waxman. The committee will come back to order.
    We are pleased now for our second panel to have Mr. Robert 
Anderson, Deputy Assistant Director for Minerals, Realty, and 
Resource Protection in the Bureau of Land Management, and the 
Honorable Benjamin H. Grumbles, who was confirmed as the 
Assistant Administrator for Water for the Environmental 
Protection Agency in November 2004. Prior to this appointment, 
Mr. Grumbles was a Deputy Assistant Administrator for Water and 
Acting Associate Administrator for Congressional Affairs and 
Intergovernmental Relations.
    We are pleased to have both of you here today.
    It is the practice of this committee to ask all witnesses 
to take an oath.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that the 
witnesses responded in the affirmative.
    Mr. Grumbles, why don't we start with you. Your whole 
statement will be part of the record. We would like to ask you 
to try to keep it in 5 minutes.

STATEMENTS OF BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
    WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; AND ROBERT 
 ANDERSON, DEPUTY ASSISTANT DIRECTOR FOR MINERALS, REALTY AND 
RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT 
                        OF THE INTERIOR

               STATEMENT OF BENJAMIN H. GRUMBLES

    Mr. Grumbles. Thank you very much, Mr. Chairman. Thank you 
Congressman Shays and other members of the committee.
    I am Benjamin Grumbles, Assistant Administrator for Water 
at EPA. It is a pleasure to be here before the committee to 
testify on the public health and environmental protection 
activities of the Agency, particularly as they relate to oil 
and gas sector.
    The President charged the Administrator with accelerating 
the pace of environmental protection while maintaining the 
country's economic competitiveness and, Mr. Chairman, a key 
part of that is to foster innovative technologies and to 
improve the coordination of permitting to advance and promote 
the clean development of energy resources.
    When it comes to ensuring environmental protection and the 
protection of public health, there are a variety of tools and 
statutory authorities, as you are very familiar with. Many of 
those that the Agency uses relate to the review of possible 
projects and project activities such as through our NEPA 
authorities.
    Mr. Chairman, we are experiencing a marked increase in the 
review of proposed oil and gas projects, in part because of 
America's push for energy security. The Agency is fully 
committed to carrying out those authorities, reviewing 
potential projects for the many different types of 
environmental impacts and associated transportation-related 
infrastructure impacts of potential projects.
    We use every tool available to do our job. I am going to 
focus in particular on some of the tools and authorities we 
have under the Clean Water Act and the Safe Drinking Water Act, 
which has been the key part of this discussion.
    Mr. Chairman, I listened to the testimony of the first 
panel. I would say there are a couple of lessons. One is 
compassion toward all who have public health problems. Another 
is the importance of pollution prevention and using the tools 
that we have and working with Congress to implement those 
statutory programs, and also work with Congress to revise or 
establish new provisions or programs or approaches.
    When it comes to the Clean Water Act, we are in the midst, 
Mr. Chairman, of conducting a national detailed study of the 
coal-bed methane industry. In December 2006 we released a plan 
for effluent guidelines under the Clean Water Act. 
Environmental Protection Agency experts have just completed a 
national tour of seven States, looking specifically at the 
coal-bed methane industry to help inform us, to then carry out 
an information collection request. And so in the next couple of 
years we will be in a position to determine whether to issue a 
new subcategory of effluent guidelines specifically for the 
coal-bed methane industry.
    Under the Clean Water Act, as you know, and the Energy 
Policy Act of 2005 there was a provision included that 
clarified and specified that stormwater runoff from field-
related work, specifically construction-related aspects of oil 
and gas facilities, was exempt from Clean Water Act stormwater 
permitting. We are faithfully implementing the provisions in 
that statute. We also issued a rule. We are in the midst of 
litigation over that rule, but what the rule did, Mr. Chairman, 
was state that, as it relates to sediment from construction 
activities, that our interpretation of the provision is that 
still does not trigger a Clean Water Act permitting 
requirement.
    However, we made clear that States should be carrying out 
best management practices, and States are free to use 
additional authorities should they decide to require permitting 
under the Clean Water Act.
    The other aspect which has received considerable attention 
and understandably is the practice of hydraulic fracturing and 
the Safe Drinking Water Act provisions and programs that may 
relate to hydraulic fracturing. In 2004 we issued a report, Mr. 
Chairman. I know you are aware of it. We spent many years 
working on it. We did have a technical expert peer review of 
that report, and the report concluded essentially that 
hydraulic fracturing did not present a significant risk to 
underground sources of drinking water. However, we did note and 
were concerned about the potential for problems with diesel 
fluids as the fluid for hydraulic fracturing.
    In December 2003 we entered into a memorandum of agreement 
with the major providers for a voluntary commitment to cease 
the use of diesel fluids, and we have been monitoring that over 
the last several years and are pleased that they seem to be 
living up to that commitment not to use diesel fluids.
    As you know, the Congress enacted in the 2005 Energy Policy 
Act a provision that prohibits EPA from regulating the practice 
of hydraulic fracturing, except if it is diesel fluids that are 
being used.
    Mr. Chairman, we are committed to using the tools we have 
under the various authorities, including not just the Clean 
Water Act and the Safe Drinking Water Act, but NEPA and the 
various programs to meet the Administrator's challenge to all 
of us in the Agency, and that is to promote the clean 
development of energy resources through innovative technologies 
and using our current authorities to protect public health.
    I would be happy to answer questions at the appropriate 
time, Mr. Chairman.
    [The prepared statement of Mr. Grumbles follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.109
    
    [GRAPHIC] [TIFF OMITTED] T5610.110
    
    [GRAPHIC] [TIFF OMITTED] T5610.111
    
    [GRAPHIC] [TIFF OMITTED] T5610.112
    
    [GRAPHIC] [TIFF OMITTED] T5610.113
    
    [GRAPHIC] [TIFF OMITTED] T5610.114
    
    [GRAPHIC] [TIFF OMITTED] T5610.115
    
    [GRAPHIC] [TIFF OMITTED] T5610.116
    
    [GRAPHIC] [TIFF OMITTED] T5610.117
    
    Chairman Waxman. Thank you very much, Mr. Grumbles.
    Mr. Anderson.

                  STATEMENT OF ROBERT ANDERSON

    Mr. Anderson. Mr. Chairman and members of the committee, 
thank you for the opportunity to appear here today to discuss 
the applicability of Federal requirements that protect public 
health and the environment in the context of oil and gas 
development.
    My testimony will focus on the on-shore Federal mineral 
estate entrusted to the BLM.
    Thank you for including my entire submitted statement in 
the record.
    The BLM manages 258 million acres of public land, as well 
as 700 million acres of mineral estate. Under the Mineral 
Leasing Act, the BLM is responsible for managing oil and gas 
leasing on BLM, National Forest, and other Federal lands, as 
well as private lands where the mineral rights have been 
retained by the Federal Government.
    Resource protection is considered throughout the land use 
planning process and when applications for permit to drill are 
processed.
    The BLM is required to review proposals to develop and 
produce oil and gas wells on Federal land. We also ensure 
adherence to numerous laws, including the National 
Environmental Policy Act, the Federal Land Policy and 
Management Act, the Endangered Species Act, the Clean Water 
Act, and other statutes and regulations. Compliance with NEPA 
can range from developing an environmental impact statement to 
application of a categorical exclusion.
    Categorical exclusions are categories of actions which do 
not have a significant effect on human environment.
    In addition, the BLM has policy guidance to ensure 
protection of the environment and public health. Onshore Order 
No. 1 addresses water quality by restricting operations in 
riparian areas and lake shores unless otherwise approved.
    Regarding groundwater, Order No. 1 requires operators to 
identify zones potentially containing usable water and their 
plans for protecting such water resources. This plan typically 
requires isolating usable water zones to avoid potential cross-
contamination with other geologic formations.
    The BLM also inspects oil and gas operations to ensure 
compliance with statutes, regulations, and permit stipulations 
that serve to protect the environment, human health, and 
safety.
    In conclusion, Mr. Chairman, thank you for the opportunity 
to discuss the application of Federal statutes, regulations, 
and policy guidance that work to protect public health and the 
environment during oil and gas development and operations on 
Federal lands. The BLM is committed to ensuring that energy 
production on public land is achieved in an environmentally 
sound manner.
    Thank you. I will be happy to address questions.
    [The prepared statement of Mr. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.118
    
    [GRAPHIC] [TIFF OMITTED] T5610.119
    
    [GRAPHIC] [TIFF OMITTED] T5610.120
    
    [GRAPHIC] [TIFF OMITTED] T5610.121
    
    Chairman Waxman. Thank you very much, Mr. Anderson.
    I will start off the questions.
    I want to start off with Mr. Grumbles. In EPA's June 2004 
report on hydraulic fracturing, EPA expressed concern about the 
use of diesel fuels in hydraulic fracturing fluids. EPA 
determined that the use of diesel fuel could introduce BTX 
compounds into underground sources of drinking water. Those BTX 
chemicals, which include benzene and toluene, are toxic 
chemicals that people should not be drinking.
    EPA has entered into a voluntary agreement with Haliburton 
and two other companies to not use diesel fuel in fracturing 
fluids, and you mentioned that in your testimony.
    Mr. Grumbles. Yes.
    Chairman Waxman. But this agreement is completely 
voluntary, with no enforcement mechanism.
    Mr. Grumbles, during the last panel we learned that BTX 
chemicals can be constituents of other petroleum products in 
addition to diesel fuel. Does EPA maintain a list of fracturing 
fluids that are injected into underground sources of drinking 
water?
    Mr. Grumbles. Mr. Chairman, I am going to need to provide 
two answers. One of them is I need to get back to you on the 
specifics of what the national water program staff have with 
respect to the different types of constituents or hazardous 
constituents of hydraulic fluids.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5610.122
    
    [GRAPHIC] [TIFF OMITTED] T5610.123
    
    [GRAPHIC] [TIFF OMITTED] T5610.124
    
    [GRAPHIC] [TIFF OMITTED] T5610.125
    
    [GRAPHIC] [TIFF OMITTED] T5610.126
    
    Mr. Grumbles. The other immediate answer is when we entered 
into that memorandum of agreement we knew full well that it was 
a voluntary agreement. We felt it was important to be 
proactive, to also work and provide technical assistance to 
Congress. Congressional committees were looking at the subject. 
And we were also committed to, on an annual basis, monitoring 
to see if the three signatories were living up to that 
agreement.
    I know, Mr. Chairman, that if----
    Chairman Waxman. If they weren't living up to the 
agreement, what would you do?
    Mr. Grumbles. What I would do is I would talk to two 
offices in the Agency. One would be the General Counsel's 
office to see what other mechanisms we might have under our 
existing authorities and tools to continue to take steps to 
ensure that diesel fluids were not used. The other office I 
would work with would be the Research and Development Office to 
see what research, what information we have, along with the 
Environmental Information Office.
    Chairman Waxman. Let me ask and see if I can get a response 
to my question, because you say you are going to get back to 
me, but do you know whether you maintain a list of fracturing 
fluids that are injected into underground water sources?
    Mr. Grumbles. I know that we have information on what 
constituents may be included. I don't know if it is a complete 
list or not, Mr. Chairman. During the hearing I have been 
asking staff, as well, to get a good sense.
    Chairman Waxman. We will look forward to getting your 
response.
    Mr. Grumbles. Yes, sir.
    Chairman Waxman. But my understanding is that the Agency 
does not maintain such a list. Can you assure us that there are 
no other hydraulic fracturing fluids that are used that contain 
BTX chemicals?
    Mr. Grumbles. I can assure you that, based on the 
information from this hearing, we are going to be looking to 
see. We are going to coordinate with the Groundwater Protection 
Council, with the Interstate Oil and Gas Compact Commission, 
and with State drinking water agencies to ask exactly that 
question: what other constituents are out there besides BTX 
that we view----
    Chairman Waxman. You are going to ask the questions, and I 
think it is appropriate, although I wish you had been able to 
answer this question now, but how can EPA guarantee that no 
fluids containing the BTX compounds are injected into sources 
of drinking water? How can you assure us that you are going to 
be on top of that?
    Mr. Grumbles. Well, I don't think we can absolutely 
guarantee it, but what it tells me is that we need to do 
additional information gathering, not just on the BTX but to 
see what other constituents might be in the hydraulic fluids, 
recognizing though----
    Chairman Waxman. I don't think you can give us that 
assurance. That is what I think is the response to my question. 
You may want to do more in this area. Today you discovered that 
you want to learn more about this area.
    Mr. Grumbles. Right.
    Chairman Waxman. But I don't think you can give us any 
assurances. Given this situation and EPA's concerns about 
protecting drinking water, would the administration support 
removing the hydraulic fracturing exemption from the Safe 
Drinking Water Act?
    Mr. Grumbles. I can't answer that question right there, Mr. 
Chairman, because I would need to coordinate with others in the 
Agency and in the administration. I can tell you that as the 
language was being developed, while the Agency did not have an 
official position on that legislation in 2005, I can tell you 
that we were providing technical input and we were very 
concerned about not having a broader savings clause.
    Chairman Waxman. Let me ask, Mr. Anderson, the other part 
of what we did in the Energy Policy Act, we took away EPA's 
authority to regulate, but we also said that the Secretary of 
Interior would enter into an agreement with the National 
Academy of Sciences to conduct a comprehensive study on the 
effects of coal-bed natural gas production on surface and 
groundwater resources in the western United States. The law 
requests recommendations from the National Academy on necessary 
changes to Federal law.
    This report was to have been completed by NAS in August 
2006. It is now November 2007. No such study has been 
initiated.
    I wrote, Mr. Anderson, to the Department of Interior on 
September 5, 2007, to find out why the Department had not 
completed the study as required by Congress. The response I 
received from the Department of Interior revealed that the 
administration had not complied with the law and is not 
intending to. Instead of conducting a full NAS study with 
recommendations as required by law, the administration is 
planning to convene a single policy public meeting with the 
National Academy, which wouldn't even produce a written 
document.
    Mr. Anderson, the National Academy doesn't only think this 
falls short of what the law requires; they tell us that it will 
be inappropriate to even refer to this effort as a study.
    Can you explain how the administration's plan for a single 
meeting will comply with the statutory language of the Energy 
Policy Act?
    Mr. Anderson. Yes, Mr. Chairman. Well, let me first say 
coming up this morning I thought that there may be great 
expectations, and I know that we had great expectations in 
reading and following up with this section of the act, and I 
know certainly you do, too.
    Let me just say that there are 11 sections in EPAC, the 
Energy Policy Act.
    Chairman Waxman. Before you get into other sections, how 
can the administration plan a single meeting and then say that 
fits the expectations, as great as they may be, that some might 
have, the expectations of the statute which called for you all 
to do the study, to get the NAS to do a study with 
recommendations? They don't think that this is a real study, 
and I don't think that it is a real study.
    Mr. Anderson. The single meeting that you are talking about 
to be held this spring is to have the EPA, the National Academy 
of Science, and BLM get together, along with other experts, 
authors of previous papers on coal-bed methane water production 
and impacts. From that meeting, we hope to determine as a group 
where we need to go from there.
    What I wanted to say just a few minutes ago, there are 11 
other sections in EPAC that direct us to do something, reports 
to Congress or studies. One is 833, and that is the renewable 
resources study by the National Renewable Energy Lab. And none 
of these sections, by the way, were funded by Congress. We 
funded that one to the tune of $50,000. However, in looking at 
the one in 1811, you know, I have been around for a long time, 
and the last study that the Academy did was 1999 on----
    Chairman Waxman. I have limited time, which I have already 
exceeded. I don't understand your answer. You do not have 
enough funds for it? Have you asked for funds from Congress to 
do the study? Congress passed a law asking you to do a study. 
If you don't have funds, why don't you tell us?
    Mr. Anderson. Well, when the----
    Chairman Waxman. I mean, to convene a meeting and say where 
do we go from here is not complying with the law.
    Given everything we heard this morning, why wouldn't the 
BLM want the benefit of an analysis of the National Academy of 
Sciences? It seems to me----
    Mr. Anderson. Absolutely, and we plan to go there, Mr. 
Chairman, but first I think it is fiscally responsible on our 
part to determine what studies have been done so that the 
National Academy can accurately portray what kind of cost it is 
going to be for us to complete further studies if further 
studies need to be done.
    Chairman Waxman. If you asked them to do the study and you 
entered into an agreement, as Congress directed you to do, 
wouldn't they be able to figure that out?
    Mr. Anderson. Yes. They will be. But first I think we need 
to determine, along with the Academy and EPA, what studies have 
been done and do they answer the questions that the Congress 
wanted us to answer. And if not, then we know that the 
magnitude of the study will be much more than we think it is 
right now.
    Chairman Waxman. Well, I do think that the study being 
delayed is resulting in ignorance, which is doing a great deal 
of harm. I wrote to Secretary Kempthorne this morning asking 
him to abandon this ridiculous approach of calling a meeting to 
then decide whether you are going to do a study that Congress 
didn't ask you if you wanted to do but told you to do. When we 
tell you to do something, it is not just a request that is at 
your leisure or if you approve of the request, it is a law.
    Mr. Anderson. I totally agree.
    Chairman Waxman. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Grumbles, I will give Mr. Anderson a break here for a 
minute. Wes Wilson, he is characterized by the first panel and 
by the committee as a whistleblower. Does he fit your 
definition of a whistleblower?
    Mr. Grumbles. Mr. Chairman, I guess the definition--I don't 
know if there is a textbook definition.
    Mr. Issa. Let's assume for a moment that a whistleblower is 
somebody who has previously undisclosed information and then 
brings it to our attention around the chain of command, around 
those who would want to keep it as a secret. That is at least 
this Member's understanding of what a whistleblower is.
    Isn't it true that Wes Wilson essentially wasn't part of 
it, looked at the information, and disagreed with it, and that 
is how we ended up with a ``whistleblower'' in this case?
    Mr. Grumbles. That is correct, Congressman. He was not 
involved. He was not viewed as a technical expert and was not 
involved in the issue in the underground injection control 
program, but was more involved in the NEPA process. The 
headquarters, as we were working on the report, the first time 
we learned of his concerns was when he released his report.
    We respect the right of employees to express their personal 
views and opinions, but I think it would be difficult to view 
him as a whistleblower, and I think the Inspector General's 
office of EPA, when asked to look into this matter, had a 
similar conclusion.
    Mr. Issa. I appreciate that. I think when Jim Hanson came 
here and said that global warming was settled science, I wanted 
to respect the fact that he thought global warming was truly 
happening, and happening at the speeds he calculated. I also 
hope he will respect those who think it is happening faster or 
slower. And I certainly would hope that EPA has a similar 
attitude that nothing is ever settled science, because settled 
science had the earth flat, the human body not to ever be cut 
into for an autopsy because you couldn't do it, and people were 
excommunicated for doing things that today save lives every 
day. So hopefully there is no such thing as settled science in 
our Government.
    Let me ask you a question though. The question of clean 
water relative to areas which have entrapped methane, entrapped 
oil, including all of its various byproducts, benzene, all the 
things that were mentioned by the earlier panel as poisons and 
toxins. They are all in there. Isn't it true that, whether you 
inject in the fracturing process or not, that seepage and water 
activities and so on, this goes on naturally anyway.
    I am from California, Santa Barbara. The Indians used to 
harvest--and this is a well-known story in Los Angeles, where 
the chairman is from, and up the coast--they used to harvest 
the tar-like oil that came ashore and they burned it. So to a 
certain extent, not belittling the effects of putting in 
compressed water to hydraulically fracture, isn't it, in fact, 
a naturally occurring event?
    Mr. Grumbles. I believe it is. There are naturally 
occurring substances. I would also say, Congressman, that some 
of the naturally occurring substances get a considerable amount 
of attention from us and with our regulatory tools. Arsenic is 
a naturally occurring substance.
    Mr. Issa. I am glad you brought that up.
    Mr. Grumbles. And we are committed to implementing the 10 
parts per billion standard in the arsenic drinking water rule 
and working with States and communities on compliance 
assistance and using cost-effective technologies to meet that 
standard.
    Mr. Issa. And let me followup on that. Because we mandated 
that during my relatively short tenure--the chairman has been 
here for the Clean Water Act and beyond for many years.
    Chairman Waxman. Yes, sir.
    Mr. Issa. But I watched the arsenic debate, the high cost, 
the predictions that, in fact, it was going to take years and 
cost a very large fortune, that it was going to shut down small 
municipalities or at least cost them huge amounts of money. As 
you compare arsenic, a poison that is in the water, to the 
possibility that in some cases some amount will be in a local 
area from this type of mining, which has gone on for many 
years, how do you weigh those if you only had one basket of 
dollars and only enough to do, let's say, half of one of them? 
Where would you put the money and why?
    Mr. Grumbles. Well, the first thing we need to do as an 
Agency that reports to Congress and implements the laws that 
Congress writes is to look to see what are our authorities and 
what flexibilities we have. A preference is always to pursue a 
risk-based approach, and therefore that requires sound science 
and looking at what are the greatest risks and helping State 
drinking water administrators and local health officials make 
the best decisions on how to reduce the most significant risks.
    Mr. Issa. But let me characterize it, because the time is 
short. Realistically, if you only had a limited amount of 
money, dramatically reducing, as Congress told you, the amount 
of arsenic to what would be considered to be a safe level from 
what Congress felt was an unsafe level is clearly a mandate on 
which the science has been settled under Christine Todd 
Whitman's time that we have said, for better or worse, that we 
want you to do this regardless of any other. We have settled 
the science by saying you shall do that. Is that correct? And 
thus that is where you know your dollars will lead to something 
which we have mandated, rather than a study of something which 
somebody says on a panel affected their life and they didn't 
report it for 9 years?
    Mr. Grumbles. Congressman, we have a mandate under the Safe 
Drinking Water Act to use the best available science. With 
arsenic, we were convinced that the best available science and 
the risks led us to affirm the 10 part per billion standard, 
and so now we have focused on implementation tools and 
compliance assistance.
    However, Congressman, the science always evolves, and in 
the spirit of always looking for what is the best available 
science, we have looked to the Science Advisory Board and 
others to continue to look at the science of arsenic and the 
risks associated with it. But the agency is committed to going 
with the best science, the 10 part per billion, particularly 
given the effective dates under the regulation.
    Mr. Issa. I appreciate that. A final question for Mr. 
Anderson.
    In your written testimony you said there were 48,000 off-
shore oil and gas leases, of which 23,000 are producing. I just 
want to clarify. You also said that there were nearly $12 
billion in royalties between 2001 and 2006, and that is over 
and above the taxes paid. Are you also aware of the status of 
the $9 billion plus that was not paid based on the Clinton 
administration era failure and the Bush administration's 
continued failure to make sure the contracts were consistent 
with the law? Are you familiar with that? And how much has been 
agreed to by the oil companies?
    Mr. Anderson. You mentioned off-shore. It is actually on-
shore wells.
    Mr. Issa. I am terribly sorry. On-shore. I apologize.
    Mr. Anderson. I was thinking ahead to the second part.
    Mr. Issa. On-shore, but are you familiar also with the off-
shore?
    Mr. Anderson. Yes, I am familiar, mostly newspaper articles 
and the like. That is a Minerals Management Service issue.
    Mr. Issa. Well, I am thrilled with the $12 billion you got, 
but as long as I have anyone here on a committee that did 
considerable oversight in the last Congress on this, I wondered 
whether either you have knowledge or could have your 
organization respond for the record on what has been done, 
item-by-item, company-by-company, because that was a major part 
of this committee's work in the last Congress.
    I never forget about accounts receivable, no matter how 
small, even if it is just a few billion.
    Mr. Anderson. Absolutely. I can tell you that the Secretary 
has appointed a special subcommittee for the Faka-chartered 
royalty policy committee that is held a couple of times a year 
through the Minerals Management Service hosting of it, and that 
subcommittee is doing some work on that issue.
    I also know that the GAO is also investigating production 
accountability and verification as we speak.
    Mr. Issa. Thank you.
    Thank you for your indulgence, Mr. Chairman.
    Chairman Waxman. You are welcome, Mr. Issa.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Again, thank you for 
having this hearing.
    I believe that there are a few issues that obviously are 
intertwined, and I think others, do, as well. One is energy 
security, or what I would call energy independence, which I 
don't think is pie in the sky over the long term, intertwined 
with the environmental concerns and health care concerns.
    I believe that one of the ways that we are going to deal 
with these concerns is conservation, I mean, just getting 
better use, conservation and greater efficiencies.
    We obviously have coal and we are going to use it. We have 
oil and we are going to use it. We have gas, which is a 
cleaner, more efficient fossil fuel, but it is still a fossil 
fuel dealing with global warming. We are going to get back into 
nuclear power. And we are obviously going to deal with the 
whole issue of renewables.
    What interests me, I want to not overstate where the 
problems are, or understate them, so when we talk about our 
effort to get gas in Colorado and elsewhere, methane, and so 
on, and fracturing, I want to be clear. When we are going after 
gas, does that impact the water table and the quality of the 
water?
    Mr. Grumbles. I would be happy to respond first.
    Mr. Shays. I want to ask both of you to. We will start with 
you.
    Mr. Grumbles. It does have the potential to impact the 
water table, and, as we have learned over the last decade, it 
has the potential to impact surface water. One of our priority 
actions in the national water program right now, in promoting 
the clean development of energy resources, including natural 
gas and, in particular, coal-bed methane, we will use our tools 
and authorities under the Clean Water Act----
    Mr. Shays. OK. You answered my question. So it does.
    Mr. Anderson.
    Mr. Anderson. Yes. If I could, before the hearing when I 
found out that I was coming today I had somebody ask one of our 
field officers, in fact in Buffalo, WY----
    Mr. Shays. Give me the answer and then give me the details. 
I mean, the answer is yes, it does, or no, it doesn't.
    Mr. Anderson. It has potential, but I am not the expert in 
that area.
    Mr. Shays. OK. So the answer is it has the potential, and 
now you want to tell me what?
    Mr. Anderson. Well, I want to tell you that the BLM, in 
addition to what is required under the Clean Water Act, we have 
our own requirements when we issue approval for a drilling 
permit. I just wanted perhaps to read a couple of stipulations 
to give you an idea of what kind of protection we do.
    Mr. Shays. No. I will just accept that you have 
protections, OK?
    Mr. Anderson. OK.
    Mr. Shays. So the next question I wanted to know, when we 
go after methane coal--correct?
    Mr. Anderson. Yes.
    Mr. Grumbles. Yes.
    Mr. Shays. And we use this for also oil and gas, which 
tends to be the greater concern? Is the gas further down, and 
therefore not as big a concern? In other words, can we get 
under the water table and not impact? So tell me which of the 
fossil fuels represents the bigger concern, or maybe they 
don't. Maybe they are all equal. We will start with you.
    Mr. Anderson. Well, sometimes you get oil and gas in the 
same formation, and sometimes you just get gas. Sometimes you 
get a little bit of condensate, which is the light end of the 
oil.
    Mr. Shays. So is the depth, the further down we go the less 
likely the water table becomes an issue, or----
    Mr. Anderson. Yes. Absolutely.
    Mr. Shays. OK. And which of these do we tend to find is 
further down? Oil? Gas?
    Mr. Anderson. Both. It just depends where it is.
    Mr. Shays. Do you agree? Does EPA agree?
    Mr. Grumbles. I would defer. I don't disagree. I would just 
defer to expertise on that. We don't typically--in fact, we are 
prohibited under the Safe Drinking Water Act from regulating 
the practice of mining. Where we get involved is on the 
injection of fluids through the UIC program, and also our NEPA 
authorities looking at potential impacts, depletion of 
aquifers, the comments we make to other agencies when we are a 
commenting agency.
    And the Clean Water Act, which is another critical part of 
this whole discussion, ensuring that when mining practices 
occur, such as coal-bed methane mining, that State water 
quality standards are complied with, and that the best 
technologies are used.
    Mr. Shays. See, the problem I have, though, some States can 
be concerned, but if the spill-over is into another State, I 
mean, this administration sincerely has taken the position that 
the market ultimately will deal with these issues, but my view 
is it only does it if the market represents a market that 
considers all cost. But if there is a spill-over cost, then the 
market fails to operate. We knew that when Mr. Waxman and 
others were dealing with this issue before I was even here.
    When I went to Gary, IN, and I saw the whole community 
looked red, or I went through Pittsburgh in the 1950's and they 
spilled over to other communities, the fact is the market 
wasn't working because they didn't have to deal with all the 
costs.
    Mr. Grumbles. Congressman, I can tell you the U.S. EPA very 
much agrees with you that there are needs, there are important 
situations where interstate, in particular, where we should be 
involved, and on this precise issue we were asked and we are 
participating heavily in facilitating discussions between an 
upstream State and a downstream State over coal-bed methane and 
the management of produced waters which may be very salty and 
have an adverse impact in some situations on the plants and the 
wildlife.
    Mr. Shays. Right. Thank you.
    Thank you, sir.
    Mr. Issa [presiding]. The gentleman from Utah, Mr. Cannon, 
for 5 minutes.
    Mr. Cannon. Thank you, Mr. Issa. I approve of your 
positioning on the panel today. Short-term, unfortunately, but 
maybe not different long-term.
    I want to thank the chairman in his absence for holding the 
hearing. I think it has been informative. Certainly we have had 
some victims here today that have had some very serious 
problems, and we are concerned about those things, but never in 
the history of the world have so many people lived so well and 
avoided the brutal effects of nature as we have in America 
today. The really nice thing about where we are and why this 
hearing is so important is that if we do it right here, 
everybody else gets the benefit. If we solve a disease in 
America, we can solve that disease for people worldwide at a 
very, very low cost. So nothing pollutes like poverty, and what 
we are doing here I think is remarkably important.
    In fact, I would like to associate myself with Mr. Shays' 
comments. We talked about balancing and being self-sufficient 
in energy, and his views about new technology and efficiency 
and alternative resources, these are all very important things 
that we have to decide as a group. We can't do that on the 
basis of victims. That is very important that we identify the 
problem based on victims. How we solve those problems I think 
are exceedingly important.
    In that context, I have a few questions I would like to ask 
Mr. Grumbles.
    You mentioned that environmental groups have challenged 
EPA's rule regarding stormwater. Is there any group who has 
testified at the hearing today that is involved in litigation?
    Mr. Grumbles. I believe so.
    Mr. Cannon. Do you know which groups?
    Mr. Grumbles. I believe NRDC has challenged the July 2006 
rule that we issued interpreting the Energy Policy Act of 2005.
    Mr. Cannon. So is this hearing a way to advance their 
discovery process?
    Mr. Grumbles. It certainly advances the issue, and the 
issue is whether some are supportive or opposed to the language 
in the statute and how EPA has interpreted it.
    Mr. Cannon. Thank you. We actually have used this. In fact, 
we had a hearing of this committee that was directed they 
plaintiffs' attorneys in another matter, and I suspect that 
actually distorts our processes here.
    Your testimony on page 8 regarding stormwater permits, you 
refer to EPA's concern for sediment and erosion control, and 
that you encourage oil and gas operators, in the absence of 
requiring permits, to use best management practices to minimize 
these impacts; is that accurate?
    Mr. Grumbles. That is accurate.
    Mr. Cannon. Could you describe why for us?
    Mr. Grumbles. Well, we think that it is very important to 
recognize that there can be adverse environmental impacts. We 
know that there can be adverse environmental impacts when 
sediment and erosion are not controlled at constructionsites, 
and so we have been working with our State partners and with 
oil and gas industry to advance their RAPPS, their reasonable 
and prudent measures. And after Congress acted and took away 
the regulatory tool under the Clean Water Act for construction 
runoff at oil and gas facilities, we felt it important to 
faithfully implement that provision, but also to encourage the 
continued development of best management practices, even if it 
is not under a Federal Clean Water Act permitting program.
    And we also made clear, Congressman--I hope we made clear--
that if States choose to use authorities--for instance, 
Colorado, which was very interested in regulating and requiring 
permits for constructionsite runoff--that our July 2006 rule 
would not preempt them from doing that; that they could do 
that.
    But the key is best management practices and taking steps 
to reduce the sediment and erosion.
    Mr. Cannon. And underlying all of this I think is the 
recognition of a distinction between what happens on a large 
constructionsite like a sub-development or subdivision being 
put in, and what happens on a relatively small site when a 
company drills.
    Mr. Grumbles. Yes, sir.
    Mr. Cannon. That yes, sir means there is a huge difference, 
a vast, huge difference?
    Mr. Grumbles. It is an excellent question to point out that 
a one-size-fits-all approach is not the most sustainable and 
effective way to get environmental results.
    Mr. Cannon. Thank you.
    Mr. Anderson, has it been your experience that groups who 
oppose the expansion of oil and gas recovery have used NEPA 
review processes to hold up or stall BLM decisionmaking?
    Mr. Anderson. Repeat that again, please?
    Mr. Cannon. Sometimes I speak too fast. I apologize.
    Have people who oppose oil and gas recovery used NEPA to 
stall the BLM processes, slow it down?
    Mr. Anderson. We have quarterly sales where we issue 
leases, and quite frequently, especially in Utah, we have 
protests.
    Mr. Cannon. I feel that pain in Utah particularly.
    Mr. Anderson. We do have protests appealing our decisions 
to lease, and even protests about issuing our applications to 
drill once they come in. So yes, we do. We do have quite a few 
protests.
    Mr. Cannon. Time, of course, is money. These delay tactics, 
are they significant or influential in decisions by drillers as 
they decide where to invest their drilling capital?
    Mr. Anderson. I would say yes. They are significant.
    Mr. Cannon. I'm sorry. That was like an obvious question, 
but the point I think ought to be well taken that a lot of what 
is going on here is about dissuading people from developing oil 
and gas. Of course, that would mean that we like people living 
in poverty and without the basic energy needs that make our 
lives so good, but that is my comment and not yours. Thank you 
very much for that.
    How long does it take for your Agency to perform a 
traditional NEPA analysis before moving forward on an 
application for permit to drill [APD]?
    Mr. Anderson. It is varied. The Energy Policy Act thought 
we could do the job in 30 days. That is assuming that NEPA has 
already been taken care of. However, that is not the case. We 
do NEPA on our applications to drill. I think our average is up 
somewhere around 150 days.
    Mr. Cannon. Has the categorical exemption under the 2005 
EPAC regarding redundant NEPA analysis saved your organization 
time and resources?
    Mr. Anderson. Yes.
    Mr. Cannon. Has it meant more drilling?
    Mr. Anderson. Yes.
    Mr. Cannon. Good. I don't want my predispositions to be 
disguised here.
    Just one final question. What kinds of activities are BLM 
employees able to undertake now, since being freed up from 
conducting these redundant NEPA analyses?
    Mr. Anderson. We are able to do more inspections out on the 
land. We have responsibility to inspect our applications or our 
drilling permits that have been approved, so we have natural 
resource specialists out on the ground more frequently. We can 
address more of the demand placed on us for more APDs, or 
applications for permit to drill.
    Mr. Cannon. So you get to do your job better? People often 
call these America's lands. I actually think of them as Utah's 
or Colorado's lands, and I think that is the obligation that 
the law puts on us.
    Mr. Shays. Objection.
    Mr. Cannon. Good friends can disagree. But we do agree on 
the fact that currently they are public and that we have 
responsibility for their good stewardship and management.
    My mother-in-law lives on the edge of the fires in southern 
California. My wife went down to help out after the fires. 
These are terrible problems that we need to minimize through 
appropriate management of our public lands. I appreciate the 
fact that you are able to do that better.
    I think my time expired some time ago, Mr. Chairman. Thank 
you for your indulgence. I yield back.
    Mr. Issa. Thank you. I thought it was only fair that I give 
you the benefit of the doubt.
    The Chair seeing no more questions, I would ask unanimous 
consent that those who are not here be allowed to submit 
questions for the record.
    Would you both agree to answer those questions for the 
record? They would come within 5 legislative days.
    Mr. Anderson. Yes.
    Mr. Grumbles. Yes.
    Mr. Issa. OK. Seeing no one else, we stand adjourned. I 
thank you.
    [Whereupon, at 1 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T5610.127

[GRAPHIC] [TIFF OMITTED] T5610.128

[GRAPHIC] [TIFF OMITTED] T5610.129

[GRAPHIC] [TIFF OMITTED] T5610.130

[GRAPHIC] [TIFF OMITTED] T5610.131

[GRAPHIC] [TIFF OMITTED] T5610.132

[GRAPHIC] [TIFF OMITTED] T5610.133

[GRAPHIC] [TIFF OMITTED] T5610.134

[GRAPHIC] [TIFF OMITTED] T5610.135

[GRAPHIC] [TIFF OMITTED] T5610.136

[GRAPHIC] [TIFF OMITTED] T5610.137

[GRAPHIC] [TIFF OMITTED] T5610.138

[GRAPHIC] [TIFF OMITTED] T5610.139

[GRAPHIC] [TIFF OMITTED] T5610.140

[GRAPHIC] [TIFF OMITTED] T5610.141

[GRAPHIC] [TIFF OMITTED] T5610.142

[GRAPHIC] [TIFF OMITTED] T5610.143

[GRAPHIC] [TIFF OMITTED] T5610.144

[GRAPHIC] [TIFF OMITTED] T5610.145

[GRAPHIC] [TIFF OMITTED] T5610.146

[GRAPHIC] [TIFF OMITTED] T5610.147

[GRAPHIC] [TIFF OMITTED] T5610.148

[GRAPHIC] [TIFF OMITTED] T5610.149

[GRAPHIC] [TIFF OMITTED] T5610.150

[GRAPHIC] [TIFF OMITTED] T5610.151

[GRAPHIC] [TIFF OMITTED] T5610.152

[GRAPHIC] [TIFF OMITTED] T5610.153

[GRAPHIC] [TIFF OMITTED] T5610.154

[GRAPHIC] [TIFF OMITTED] T5610.155

[GRAPHIC] [TIFF OMITTED] T5610.156

[GRAPHIC] [TIFF OMITTED] T5610.157

[GRAPHIC] [TIFF OMITTED] T5610.158

[GRAPHIC] [TIFF OMITTED] T5610.159

[GRAPHIC] [TIFF OMITTED] T5610.160

[GRAPHIC] [TIFF OMITTED] T5610.161

[GRAPHIC] [TIFF OMITTED] T5610.162

[GRAPHIC] [TIFF OMITTED] T5610.163

[GRAPHIC] [TIFF OMITTED] T5610.164

[GRAPHIC] [TIFF OMITTED] T5610.165

[GRAPHIC] [TIFF OMITTED] T5610.166

[GRAPHIC] [TIFF OMITTED] T5610.167

[GRAPHIC] [TIFF OMITTED] T5610.168

[GRAPHIC] [TIFF OMITTED] T5610.169

[GRAPHIC] [TIFF OMITTED] T5610.170

[GRAPHIC] [TIFF OMITTED] T5610.171

[GRAPHIC] [TIFF OMITTED] T5610.172

[GRAPHIC] [TIFF OMITTED] T5610.173

[GRAPHIC] [TIFF OMITTED] T5610.174

[GRAPHIC] [TIFF OMITTED] T5610.175

[GRAPHIC] [TIFF OMITTED] T5610.176

[GRAPHIC] [TIFF OMITTED] T5610.177

                                 <all>

</pre></body></html>
